<html>
<title> - INCIDENT COMMAND, CONTROL, AND COMMUNICATIONS DURING CATASTROPHIC EVENTS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                       INCIDENT COMMAND, CONTROL,
                       AND COMMUNICATIONS DURING
                          CATASTROPHIC EVENTS

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
                       PREPAREDNESS, SCIENCE, AND
                               TECHNOLOGY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 29, 2005

                               __________

                           Serial No. 109-44

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
32-241                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012007


                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael McCaul, Texas                James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

                                 ______

     SUBCOMMITTE ON EMERGENCY PREPAREDNESS, SCIENCE, AND TECHNOLOGY

                 Dave G. Reichert, Washington, Chairman

Lamar S. Smith, Texas                Bill Pascrell, Jr., New Jersey
Curt Weldon, Pennsylvania            Loretta Sanchez, California
Rob Simmons, Connecticut             Norman D. Dicks, Washington
Mike Rogers, Alabama                 Jane Harman, California
Stevan Pearce, New Mexico            Nita M. Lowey, New York
Katherine Harris, Florida            Eleanor Holmes Norton, District of 
Michael McCaul, Texas                Columbia
Charlie Dent, Pennsylvania           Donna M. Christensen, U.S. Virgin 
Peter T. King, New York (Ex          Islands
Officio)                             Bob Etheridge, North Carolina
                                     Bennie G. Thompson, Mississippi 
                                     (Ex Officio)

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Dave G. Reichert, a Representative in Congress From 
  the State of Washington, and Chairman, Subcommittee on 
  Emergency Preparedness, Science, and Technology................     1
The Honorable Bill Pascrell, Jr., a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Emergency Preparedness, Science and Technology..............     2
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Committee on Homeland 
  Security.......................................................     4
The Honorable Benie G. Thompson, a Representative in Congress 
  From the State of Mississippi:
  Prepared Statement.............................................     5
The Honorable Michael McCaul, a Representative in Congress From 
  the State of Texas.............................................    41

                               WITNESSES

Mr. Chuck Canterbury, National President, Fraternal Order of 
  Police:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Mr. Bob Freudenthal, President, American Public Works 
  Association:
  Oral Statement.................................................    15
  Prepared Statement.............................................    17
Mr. Robert L. Garner, President and CEO, American Ambulance 
  Association:
  Oral Statement.................................................    19
  Prepared Statement.............................................    21
Mark Edward Gebhart, M.D.,, Assistant Professor of Emergency, 
  Medicine, Boonshoft School of Medicine at Wright State 
  University:
  Oral Statement.................................................    32
  Prepared Statement.............................................    34
Mr. William D. ''Bill'' Killen, Chief, President, International 
  Association of Fire Chiefs:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11
Mr. David E. Liebersbach, Immediate Past President, National 
  Emergency Management Association:
  Oral Statement.................................................    26
  Prepared Statement.............................................    28


                       INCIDENT COMMAND, CONTROL,
                        AND COMMUNICATION DURING
                          CATASTROPHIC EVENTS

                              ----------                              


                      Thursday, September 29, 2005

             U.S. House of Representatives,
                    Committee on Homeland Security,
                    Subcommittee on Emergency Preparedness,
                                    Science and Technology,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 1:02 p.m., in 
Room 311, Cannon House Office Building, Hon. Dave Reichert 
[chairman of the subcommittee] presiding.
    Present: Representatives Reichert, King, McCaul, Pascrell, 
Christensen, and Etheridge.
    Mr. Reichert. [Presiding.] Good afternoon. The Committee on 
Homeland Security's Subcommittee on Emergency Preparedness, 
Science, and Technology will come to order.
    The subcommittee will hear testimony today on incident 
command, control, and communications during catastrophic 
events.
    I would first like to welcome our witnesses and thank them 
for taking time out of their schedules to be with us here 
today, so thank you all very much.
    I want to take a moment to welcome everyone to this 
hearing. This is my first hearing as chairman, as most of you 
know. I am honored to lead this subcommittee, especially as a 
freshman. As you know, it is my first term in Congress and not 
everyone here knows me very well, but hopefully over the next 
few years we will gain some respect and a working relationship 
with each other.
    Our most important asset as a subcommittee is the witnesses 
that appear before us, and hearing your different arguments 
empowers us to make educated decisions for the American people. 
I thank you all again for being here.
    We are here today to discuss a topic that affects every one 
of us. I believe you will find it is not partisan, but 
personal. Today, we will examine disaster response on the 
ground and how to ensure that our nation is not ever again 
overwhelmed by a large-scale emergency or disaster.
    This issue is central to the mission of this subcommittee 
and is also at the heart of who I am. As the former sheriff of 
King County in Seattle, Washington, as a first responder for 
over 33 years, I can personally attest there has to be 
effective and efficient responses to catastrophic events. 
Without planning, training and communication, of course this 
would not happen.
    Hurricanes Katrina and Rita were so catastrophic and so 
unexpectedly damaging that they burned right through the 
resources of our first responders. This country's first 
responders are phenomenal, as we all know, and frequently are 
putting their lives on the line for all of us. Yet as these 
hurricanes struck, they faced unprecedented operational, 
logistical and financial problems.
    As we look to the future, it is critical that we put an 
effective incident command structure in place so that, even if 
communications are knocked out, emergency response continues.
    There is no denying mistakes were made in the wake of these 
two storms. It is clear we need to put a system in place to 
handle the massive influx of support personnel and resources to 
a disaster site, while at the same time managing timely and 
accurate information on incident commanders and the public.
    There are many concerns to be addressed, and I do not doubt 
we will realize all of that as we continue forward. I also 
believe that, however, we must all have the same common 
interest: wanting to ensure that the American people have an 
emergency system that responds quickly and effectively in times 
of need. The bottom line is that we want to protect citizens, 
especially in times of great loss.
    I know that working together we will make progress. We will 
examine how to ensure the short-term and long-term health and 
safety of our first responders and how to effectively treat 
victims in mass-casualty events and how to ensure that response 
and recovery funds are spent wisely and many more important 
issues.
    My predecessor as chairman of the subcommittee, Peter King, 
left big shoes to fill, as we know, and I will work hard to do 
my best to continue the integrity and dedication that he has 
instilled. I know I speak for every member here today when I 
say we are honored to have him as chairman of the Homeland 
Security Committee.
    I am also lucky to have next to me Bill Pascrell at my side 
as the subcommittee's distinguished ranking member. I am eager 
to work together with him.
    While we take time to examine disaster responses today, I 
think it is important we not forget the most important thing 
that we have seen following the storms: the strength, the power 
and bravery of the families and loved ones in the Gulf Coast. 
They have shown amazing heart and our prayers are with them.
    So thank you, and welcome again.
    The chair now recognizes the ranking minority member of the 
subcommittee, the gentleman from New Jersey, Mr. Pascrell, for 
a statement.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Today's hearing is designed to examine incident command, 
control, and communications during times of crisis. We will 
specifically focus on the progress toward the national adoption 
of the Incident Command System, the ICS, very critical and very 
important to everybody here--a standardized response system for 
emergency responders. ICS is designed to ensure that the first-
responder community maintains adequate and operable means of 
communication in the event of a disaster.
    Additionally, this hearing will build upon the September 
2004 hearing on the National Incident Management System, a 
nationwide model for federal, state, and local governments to 
work together to prepare for, to respond to, and recover from 
domestic incidents.
    It goes without saying that these are areas of extreme 
importance that Congress must examine, must explore with robust 
vigor. I am glad that this subcommittee has taken the lead on 
these vital issues.
    I am confident in saying that I do not think we could have 
a much better advocate for the needs of first responders than 
our new chairman, David Reichert. With 30 years of noted law 
enforcement experience, Chairman Reichert knows first-hand what 
our men and women in the field go through on a daily basis.
    I want to just say this about that: It is critical that the 
Congress listens to those people who have the boots on the 
ground out in the field. For too long, this Congress on every 
issue listens to consultants. You are the consultants. You are 
there. You deal with this every day. We should be listening to 
you.
    I do not speak for the chairman of the overall committee, 
but I know Peter King feels the same way that I do. We need to 
pay a lot more attention to you who are in the field, the men 
and women who are in the field day-in and day-out, because when 
there is not a crisis, you have to be there also.
    I congratulate my friend, David, on his position. I am 
excited to work with him in a bipartisan fashion for the common 
good.
    The hearing comes at a poignant time in our collective 
conscience. The tragedy of Hurricane Katrina and the searing 
images of Americans dying, suffering, calling desperately for 
help, has raised enormously important questions related to our 
nation's emergency response capabilities.
    While the Homeland Security Committee has yet to schedule 
any specific hearings related to the response to Hurricanes 
Katrina and Rita, I believe today's meeting in our subcommittee 
can still be used to probe issues related to response to these 
catastrophic storms.
    Both Hurricanes Katrina and Rita involved mass evacuation 
of people from major metropolitan areas. Mass evacuations can 
greatly impact command and control of major disasters. In 
addition, mass care and sheltering of evacuees for what can be 
a lengthy period of time is a major issue for the areas not 
directly impacted by the storm. To what extent does the 
National Incident Management System and the ICS take into 
consideration evacuation planning and routes?
    During Hurricane Katrina, communications problems were 
compounded by the destruction of the communications 
infrastructure. First responders were often unable to have 
operable communications of any type. This fact made the 
inability to communicate with other first-responder disciplines 
and agencies a secondary concern. Beyond interoperability, what 
were the major obstacles to effective communications? How did 
this affect the command and control of the disaster, as well as 
hinder the overall response?
    After Hurricane Katrina, there was a great outpouring of 
volunteers and donations to support the relief efforts. As we 
know, volunteers and donations are often needed to adequately 
recover from disasters, yet both individuals and companies have 
experienced difficulties donating goods and services to the 
relief effort. A better system of managing these donations may 
be needed and should be discussed. Has the National Response 
Plan and the National Incident Management System adequately 
addressed these areas? What changes do you think we need to 
make?
    These questions, just to name but a few, must be examined 
and explored thoroughly by our committee. Today is a good first 
step. I hope that in the weeks and months ahead we will 
continue to explore these issues in a thorough manner.
    I want to thank today's witnesses not only for their 
testimony, but more importantly for your services, each 
representing a large amount of people in this country. You 
provided these services to the American community in your roles 
as emergency managers and responders. There is no doubt this 
panel can learn a great deal from each of you.
    I came to the Congress as one of my major priorities to do 
you justice. I hope I have not let you down. I pray God I never 
will. Thank you for being here today.
    Thank you, Mr. Chairman.
    Mr. Reichert. Thank you, Mr. Pascrell.
    The chair now recognizes the chairman of the full 
committee, the gentleman from New York, Mr. King.
    Mr. King. Thank you, Chairman Reichert.
    I have a formal statement which I would like to be made 
part of the record. I would just like to make a few remarks.
    First of all, I want to congratulate Dave Reichert on being 
appointed chairman of the subcommittee. I cannot think of 
anybody more qualified. He has an extensive and distinguished 
career. Even more than that, he has the dedication. During the 
time that I was chairman of the subcommittee and Congressman 
Reichert was a member, I do not think anyone took more notes or 
asked more questions or followed up more than he did. He is 
absolutely dedicated to this, and he is going to do a truly 
outstanding job.
    One of the reasons he will do an outstanding job is he is 
working with Bill Pascrell, who is an old friend of mine. Bill 
and I certainly managed to put all partisanship aside to treat 
this not as a Republican or Democratic issue, but as an 
American issue. I really commend Bill. When there were times 
when we could have gone into partisan directions, he did not. I 
thank him for that. I certainly look forward to working with 
him in my new capacity as chairman of the full committee.
    I also want to thank the witnesses for being here today. As 
Bill Pascrell said, you are the people that are on the ground. 
You are the ones who do the job. Others talk about it, others 
deliberate about it, but you guys do it. It really means a 
tremendous amount to our country. Like Congressman Pascrell and 
Congressman Reichert, I hope that we can in some small way 
repay you for the service that you have given to our country.
    The issue today, the whole issue of incident command, 
control, and communications is absolutely essential. It is 
vital. It was certainly driven home to us during the Katrina 
and Rita Hurricanes. These are issues that must be addressed. 
They are issues that have to be looked at, perhaps from a fresh 
look.
    I know that this subcommittee hearing today is a good first 
step along those lines. I know that Chairman Reichert will do 
an excellent job. I wish him well, and I look forward to the 
testimony and the questions.
    Thank you, Mr. Chairman.

         Prepare Statement of the Honorable Bennie G. Thompson

    One month ago today, Hurricane Katrina made landfall in Louisiana 
and in my home state of Mississippi. This past weekend, Hurricane Rita 
hit Southeast Texas and Southwest Louisiana.
    Both hurricanes left us with many questions on our nation's 
preparedness.
    As the Committee responsible for homeland security, it is our 
responsibility to figure out what went wrong and why. We owe it to our 
constituents and to the nation as a whole.
    During the aftermath of Hurricanes Katrina and Rita, we witnessed 
what can happen when there is not an organized and adequate response.
    We also know that effective communication during an incident is 
vital to a safe and effective response. We saw and were told as much 
after 9/11.
    Somehow, four years later, we still know but are not doing.
    Why is this the case?
    Why couldn't the police in towns in Mississippi talk to each other? 
Why did the police in New Orleans suffer as much as they did, driving a 
couple of officers to suicide?
    This past weekend with Rita, why did the local officials have to 
rely on battery-drained cells to communicate with one another?
    What happened to lessons learned?
    It was not just an issue of communications interoperability with 
the hurricanes, but an issue of having ANY operable means of 
communication.
    Communication during an incident is also dependent on state and 
local officials having someone to turn to in the federal government and 
not having their requests lost in the bureaucracy.
    Unfortunately, during Katrina, communication at all levels of 
government was not what it should have been.
    I heard about incidents where FEMA required local officials to 
``Fax'' requests in order to receive assistance. I heard it from local 
officials in Mississippi and then again earlier this week from police 
chiefs in Texas who were told the same thing.
    I don't understand what type of bureaucracy requires a fax from 
folks underwater, with little food, no communications, and no 
electricity.
    It is also shameful that my colleagues, Congressmen Melancon and 
Taylor, had to call this Committee to ask for assistance to get 
satellite phones from the Department of Homeland Security.
    Before we got involved, they were told that they had to fill out 
some nonsense paperwork and talk to some office that I had never heard 
of.
    I want to thank the folks at the Department of Homeland Security 
Legislative Affairs Office who recognized how ridiculous this was and 
worked to cut the bureaucracy and get Louisiana and Mississippi the 
help it needed.
    If it weren't for those folks, our colleagues might still be 
waiting for communications to arrive while the paperwork was filed, 
stamped, and filled out in triplicate.
    As a former volunteer firefighter and local official, I understand 
the importance of a clear command and control structure, and the 
benefits that such a structure provides during incident response.
    I also understand that it is sill for the federal government to 
think that any local or state entity can withstand a massive event--
whether a natural disaster or terrorist attack.
    If anyone has any questions about this, they should read the 9/11 
Commission report, which found that the attacks on the World Trade 
Center completely overwhelmed New York City's robust emergency response 
capability.
    Specifically, they noted that even though the New York Police and 
Fire Departments were both prominent emergency response organizations, 
there were problems.
    Read the National Response Plan or National Planning Scenarios 
issued by the Department in the past year--BEFORE THE HURRICANES HIT--
that said that in the event of a hurricane, state and locals would be 
overwhelmed and, most likely, underwater.
    Again I ask, what happened to lessons learned?
    After 9/11, the citizens of New York and neighboring states 
deserved better than the status quo. After Hurricanes Katrina and Rita, 
the citizens of Mississippi, Louisiana, Alabama, Florida, and Texas 
deserve better.
    Actually, all first responders across the nation deserve better.
    Americans deserve to know that if an earthquake strikes California, 
our First responders are prepared and have the command system and 
communications they need.
    If wild fires spread across New Mexico, Arizona, or California, 
they are prepared.
    Hopefully this will be the first of many hearings in this Committee 
that will assess the response to and recovery from Hurricanes Katrina 
and Rita, so we can assure this preparedness.
    I thank the witnesses for appearing before the Subcommittee, I look 
forward your testimony.
    Thank you, Mr. Chairman.

    Mr. Reichert. Thank you, Mr. Chairman.
    I have to respond by saying thank you for having faith in a 
new member to take on this responsibility. It is a new, 
exciting adventure that we are going to be on together, and 
hopefully we will do some good work together to make sure, 
again, that this country is ready for the next event that may 
happen in the future.
    We are pleased to have a distinguished panel of witnesses 
with us today. With us are Mr. Chuck Canterbury, the national 
president, Fraternal Order of Police; Chief William ``Bill'' 
Killen, president, International Association of Fire Chiefs; 
Mr. Bob Freudenthal, president, American Public Works 
Association; Mr. Robert Garner, president and CEO, American 
Ambulance Association; Mr. David Liebersbach, immediate past 
president, National Emergency Management Association; and Dr. 
Mark Gebhart, assistant professor of emergency medicine, 
Boonshoft School of Medicine at Wright State University.
    Let me remind the witnesses that their entire written 
statement will appear on the record. We ask that, due to the 
number of witnesses on our panel today, you strive to limit 
your oral testimony to no more than 5 minutes please.
    The chair now recognizes Mr. Chuck Canterbury, national 
president of the Fraternal Order of Police, to testify.

                 STATEMENT OF CHUCK CANTERBURY

    Mr. Canterbury. Good afternoon, Mr. Chairman and Ranking 
Member Pascrell and distinguished members of the House 
Committee on Homeland Security. As the chairman has told you, 
my name is Chuck Canterbury. I am the national president of the 
Fraternal Order of Police. I am the elected spokesperson 
representing 321,000 rank-and-file police officers.
    I am here this afternoon to share our views on the 
challenges faced by law enforcement officers during critical 
incidents.
    First, let me say we are very pleased to have a law 
enforcement professional as the chairman of this committee. We 
look forward to a long relationship with you, Mr. Chairman.
    Command and control during critical incidents, particularly 
in the first few hours after an event, is the single most 
important factor in mitigating the loss of life and property. 
However, the effectiveness of the incident commander and his 
ability to maintain oversight of the situation hinges on his 
ability to communicate with the public safety governmental and 
private entities who play a role in the response to a critical 
incident. In short, without the ability to talk to the various 
elements which play a role in critical incident response, even 
the best-laid preparations can quickly come undone.
    My testimony this afternoon will focus on the incident 
commander the vital communications needs of the command in 
particular.
    In order to establish and maintain command and control, 
most emergency services, particularly when multiple layers of 
government or first-responder disciplines are involved, utilize 
the ICS system. ICS features or should feature a common 
organizational structure and apply key management principles in 
a standardized way by providing a means to coordinate the 
efforts of individual agencies to achieve three main 
priorities: life safety, incident stability and conservation of 
property.
    Generally speaking, an ICS has five major functions: 
command, planning, operations, logistics, and finance-
administration. These three priorities and five elements are 
present in every incident command system and its use it not 
limited to large-scale incidents. In fact, most communities use 
some form of ICS to respond to routine emergencies on small-
scale events, and in many cases all five elements are relevant 
to some extent, though sometimes they are through one person 
who may manage them all.
    For example, after receiving report of a single-car 
accident on a busy highway, a single dispatcher and the 
appropriate command authority can deploy a variety of emergency 
service assets: law enforcement officers to secure the scene 
and direct traffic, firefighters to extract the victims from 
the car and clean hazardous materials spills, EMTs to treat 
injuries. Under the ICS theory, the scale of the response 
expands to meet the scale of the incident. So whether the 
situation is as minor as a fender-bender or a widespread 
catastrophic event like a hurricane or terrorist attack, the 
ICS theory should be in place.
    The highest-ranking position within the ICS is obviously 
the incident commander who is ultimately responsible for all 
the activities that take place during the incident, including 
development and implementation of strategic decisions. In order 
to make these life and death decision, an incident commander 
must be able to receive accurate information. The entire 
command and control doctrine depends on integrated systems for 
communication to allow data to be continuously updated during 
an incident, provide a common framework that covers the 
incident's life-cycle across jurisdictions and disciplines.
    With such a communication system in place, the incident 
commander is able to disseminate warnings to civilians caught 
up in the incident, as well as public safety officers involved 
in the response, to formulate, execute and communicate 
operational decisions, as well as between the incident-
management entities across jurisdictions, and to develop and 
maintain overall awareness and understanding of an incident 
within and across jurisdictions.
    If you would, without the reliable communications, 
sometimes we end up with situations like we had recently with 
the failure of the communications system with the New Orleans 
Police Department, which was inoperative for 3 days following 
the hurricane. At one point, hundreds of New Orleans officers 
were trying to communicate on two radio channels on a backup 
system, forcing them to wait for an opening in radio traffic in 
order to transmit or receive critical information.
    Interoperability is a frequent post-incident buzzword, but 
little progress has been made in developing and implementing a 
truly interoperable communications system. For instance, in 
1997, the FOP pushed for legislation that would provide 24 MHz 
of spectrum on the 700 MHz band for use by public safety 
agencies. Yet in our nation's most populated areas, television 
broadcasters still occupy this spectrum nearly 9 years after it 
was allocated exclusively for the use of public safety.
    In closing, Mr. Chairman, we would just like to thank you 
for allowing us to appear here today. Obviously, 5 minutes is 
not very long and we have submitted written comments that were 
much more detailed.
    Thank you very much.
    [The statement of Mr. Canterbury follows:]

                 Prepared Statement of Chuck Canterbury

    Good morning, Mr. Chairman, Ranking Member Pascrell, and 
distinguished Members of the House Committee on Homeland Security. My 
name is Chuck Canterbury, National President of the Fraternal Order of 
Police. I am the elected spokesperson of more than 321,000 rank-and-
file police officers--the largest law enforcement labor organization in 
the United States. I am here this afternoon to share with you the views 
of the F.O.P. on the challenges faced by law enforcement officers 
during critical incidents.
    Before I begin my testimony, I want to offer my congratulations 
toChairman Reichert, a thirty-year law enforcement veteran for having 
assumed the chairmanship of this Subcommittee. The F.O.P. often feels 
that law enforcement's preventive role in homeland security is 
overlooked in favor of ``response and recovery,'' and we believe that 
his experience will greatly benefit the work of his Subcommittee and 
the Committee as a whole.
    Command and control during a critical incident, particularly in the 
first few hours after an event, is the single most important factor in 
mitigating the loss of life and property.
    However, the effectiveness of the Incident Commander, and his 
ability to maintain oversight of the situation, hinges on his ability 
to communicate with the myriad public safety, governmental, and private 
entities who will play a role in the response to a critical incident. 
In short, without the ability to talk to the various elements which 
play a role in critical incident response, even the best laid 
preparations can quickly come undone. My testimony this afternoon will 
thus focus on the role of the Incident Commander and the vital 
communications needs of the command in particular.
    In order to establish and maintain command and control, most 
emergency services, particularly when multiple layers of government or 
first responder disciplines are involved, utilize an Incident Command 
Structure or Incident Command System (ICS). An ICS features, or should 
feature, a common organizational structure and apply key management 
principles in a standardized way by providing a means to coordinate the 
efforts of individual agencies to achieve three main priorities: life 
safety, incident stability, and conservation of property. Generally 
speaking, an ICS has five major functions: command, planning, 
operations, logistics, and finance/administration.
    These three priorities and five elements are present in every 
Incident Command System and its use is not limited to large scale 
incidents. In fact, most communities use some form of ICS to respond to 
``routine emergencies'' or small scale events and, in many cases, all 
five elements of ICS are relevant to some extent, though one person may 
be able manage them all.
    For example, after receiving reports of a single car accident on a 
busy highway, a single dispatcher and the appropriate command authority 
can deploy a variety of emergency service assets--law enforcement 
officers to secure the scene and divert traffic flow, firefighters to 
extract individuals from the car or assist with any spills of hazardous 
materials, and emergency medical technicians to treat any injuries. 
Under ICS theory, the scale of the response expands to meet the scale 
of the incident, for emergency response to be effective, it must be 
complete, whether the situation is as minor as a fender-bender, or a 
widespread, catastrophic event like a hurricane or terrorist attack.
    The highest ranking position within the ICS is the Incident 
Commander, who is ultimately responsible for all activities that take 
place during an incident, including the development and implementation 
of strategic decisions and the ordering and releasing of resources. In 
order to make these life-and-death decisions, an Incident Commander 
must be able to receive accurate information from assets in the field 
and to communicate with those assets during the entirety of the 
incident. A common operating picture is necessary for consistency at 
all levels of incident management across jurisdictions, as well as 
between various governmental jurisdictions and private-sector and 
nongovernmental entities that may be engaged.
    The entire command and control doctrine depends on integrated 
systems for communication, to allow data to be continuously updated 
during an incident, providing a common framework that covers the 
incident's life cycle across jurisdictions and disciplines. With such a 
communication system in place, the Incident Commander is able to 
disseminate warnings to civilians caught up in the incident as well as 
public safety officers involved in the response; to formulate, execute, 
and communicate operational decisions at the incident site, as well as 
between incident management entities across jurisdictions and 
functional agencies; to prepare for potential requirements and requests 
supporting incident management activities; and develop and maintain 
overall awareness and understanding of an incident within and across 
jurisdictions.
    Without reliable and effective communications, the effectiveness of 
ICS is compromised because it is impossible for the Incident Commander 
to establish and maintain a common operational picture of the incident, 
and thus he is unable to make effective, consistent, and timely 
decisions.
    Consider, for example, the failure of the communications system 
serving the New Orleans Police Department, which was inoperative for 
three days following the hurricane. At one point, hundreds of New 
Orleans officers were trying to communicate on two radio channels on a 
back-up system, forcing them to wait for an opening in radio traffic to 
transmit or receive critical information.
    ``Interoperability'' is a frequent post-incident buzzword, but 
little real progress has been made on developing and implementing truly 
interoperable communications systems. For instance, in 1997, the F.O.P. 
pushed for legislation that provided 24MHz of spectrum on the 700MHz 
band for use by public safety agencies.
    Yet, in our nation's most populous areas, television broadcasters 
still occupy this spectrum nearly nine years after it was allocated for 
the exclusive use of public safety.
    The F.O.P. and other public safety organizations are lobbying 
Congress to set a hard date for broadcasters to vacate this spectrum in 
order to increase the capacity of current systems, alleviate dangerous 
radio communications congestion, and allow implementation of new and 
expanded multi-agency and wide-area radio systems. This will enable 
greater communications interoperability among agencies at all levels of 
government and allow the implementation of newer, more advanced mission 
critical communications, including high speed data, imaging and video 
systems. But, I am saddened to say, we are encountering resistance from 
certain members of Congress who are reluctant to take on the 
broadcasters and a successful conclusion on this issue is anything but 
certain.
    The effectiveness of any Incident Commander and the entire ICS 
paradigm is tied to the ability to communicate quickly and reliably. If 
we are to improve our ability to respond to a catastrophic event, then 
the first order of business must be to address the communications needs 
of public safety agencies at every level of government.
    I want to thank you, Mr. Chairman and Ranking Member Pascrell, as 
well as the other Members of this distinguished Subcommittee for your 
continued leadership and for the chance to appear before you today. I 
will now take any questions you may have.

    Mr. Reichert. Thank you, Mr. Canterbury.
    The chair now recognizes Chief Killen, president of the 
International Association of Fire Chiefs, to testify.

                  STATEMENT OF WILLIAM KILLEN

    Chief Killen. Good afternoon, Mr. Chairman, Ranking Member 
Pascrell and members of the subcommittee. Thank you for this 
opportunity to testify this afternoon about an issue of 
paramount importance to America's fine emergency services.
    Before I begin, I would like to congratulate you, Mr. 
Chairman, on being chosen to lead this subcommittee. I am 
really tickled to see a first responder sitting up there in 
charge of this committee.
    The International Association of Fire Chiefs emphatically 
endorses the National Incident Management System. This system 
is based on an incident command system that has been in use in 
the fire service for more than 20 years on everything from 
house fires to terrorist attacks.
    I must stress, however, that the National Incident 
Management System will work only when government officials at 
all levels have the knowledge and the willingness to use it. 
Agencies must work together, exercise together, plan together 
and understand everyone's capabilities and determine ahead of 
time who will be in charge.
    The National Incident Management System requires hard 
decisions, but incident command cannot be saved for the big 
one. We must implement it for every incident, every day.
    Mr. Chairman, the response to Hurricane Katrina made clear 
that this nation is nowhere near being ready to implement the 
National Incident Management System. The National Incident 
Management System Integration Center must take more aggressive 
steps to train government officials at all levels in this 
system and hold them accountable to it.
    The IAFC sent 29 fire chiefs to Louisiana and the Gulf 
Coast to aid response and recovery efforts. My written 
testimony details the experiences of Chief Kelvin Cochran of 
the Shreveport Fire Department and Chief Richard Carrizzo of 
the Southern Platte Fire Protection District, who was at the 
state emergency operations center. Both chiefs noted the utter 
lack of structure and communication at any level of government 
for the first 10 days. The state did not utilize the National 
Incident Management System and there was no statewide mutual 
aid system for deploying resources.
    Without even basic-level organizational management, the 
fire service filled the void by dispatching personnel and 
equipment where it was needed. Chief Cochran dispatched teams 
of 27 members to New Orleans. These teams rescued people from 
hospitals and the Superdome without any clear structure to 
report to for guidance.
    In addition, Chief Cochran was forced to manage the 
treatment and transportation of evacuees without any 
coordination. He literally had to see who showed up on his 
doorstep and figure out how to bathe, clothe and feed them.
    Chief Carrizzo served in the emergency operations center 
where there was no clear incident commander or formal command 
structure for the first 2 weeks. It was not clear who was 
represented in the emergency operations center and there was no 
formal process for making and tracking requests.
    Had an incident command system been established, a state-
level official with a corresponding federal official would have 
been in place in the state emergency operations center for each 
of the necessary aspects of response.
    For example, representatives of the Arlington County Fire 
Department, the Police Department and the Federal Bureau of 
Investigation had been meeting for years prior to 9/11. Each 
understood the other's needs and had established a high-degree 
of trust. Because of those relationships and understandings, 
each agency was represented at the command post within 10 
minutes. The unified command structure facilitated 
communications, operability and saved lives.
    Mr. Chairman, we must build a national capability to 
respond that includes the ability to use the National Incident 
Management System. To accomplish this goal, we make the 
following recommendations.
    One, the Department of Homeland Security must establish a 
baseline capacity by requiring everyone from the executive 
level to the responder level, to take the online National 
Incident Management System introduction course.
    Two, the Department of Homeland Security should issue a 
list of practical steps that each state must accomplish over 
the next year to become NIMS-compliant, including a requirement 
to use the National Incident Management System in exercises as 
a prerequisite to receiving state homeland security grant 
funds. Without exercise, learning the National Incident 
Management System would be like learning to ride a bike by 
reading a book.
    Three, the Department of Homeland Security must foster 
regionalism by requiring each state's homeland security plan to 
identify regions within its borders, create regional boards, 
and require those boards to submit a mutual aid plan to the 
state for inclusion in the federal grant application.
    Fourth, the Department of Homeland Security should also 
require metropolitan areas, the states and the federal 
government to establish standing incident management teams to 
support each other. The response would start at the local level 
and work its way up the chain as necessary.
    And fifth, Congress should fully fund the National Incident 
Management System Integration Center.
    Thank you, Mr. Chairman, for inviting me to speak to you 
today. It has been my pleasure to share the International 
Association of Fire Chiefs' views at this hearing. I look 
forward to answering any questions that you might have.
    [The statement of Chief Killen follows:]

             Prepared Statement of Chief William D. Killen

    Mr. Chairman and members of the committee, I am Bill Killen, Chief 
of Fire and Emergency Services for the Holston Army Ammunition Plant in 
Kingsport, Tennessee. I appear today in my role as president of the 
International Association of Fire Chiefs.
    The IAFC represents the leaders and managers of America's fire and 
emergency service. America's fire and emergency service reaches every 
community across the nation, protecting urban, suburban, and rural 
neighborhoods. Nearly 1.1 million men and women serve in more than 
30,000 career, volunteer, and combination fire departments across the 
United States. The fire service is the only entity that is locally 
situated, staffed, and equipped to respond to all types of emergencies. 
Members of the fire service respond to natural disasters such as 
earthquakes, tornadoes, and hurricanes as well as to man-made 
catastrophes, both accidental and deliberate, such as hazardous 
materials incidents and acts of terrorism. As such, America's fire 
service is an all-risk, all-hazards response entity.
The IAFC Endorses the National Incident Management System
    Mr. Chairman, one cannot address incident command, control, and 
communication without discussing the National Incident Management 
System, commonly known as the NIMS. Homeland Security Presidential 
Directive (HSPD) 5, Management of Domestic Incidents, directed the 
Secretary of Homeland Security to develop the NIMS to provide a 
consistent nationwide approach for federal, state, local and tribal 
governments ``to work effectively and efficiently together to prepare 
for, prevent, respond to, and recover from domestic incidents, 
regardless of cause, size, or complexity.'' \1\ The Department of 
Homeland Security (DHS) issued the NIMS Document on March 1, 2004. As 
of September 30 of this year, federal, state, and local governments 
must be compliant with the NIMS, meaning that every government agency 
at every level should be familiar with its concepts and be able to use 
it during a catastrophic event. The response to Hurricane Katrina 
showed us that these requirements have not been met.
---------------------------------------------------------------------------
    \1\ Memorandum from Homeland Security Secretary Tom Ridge on the 
National Incident Management System, March 1, 2004, found in the NIMS 
Document, published on March 1, 2004, found at http://www.fema.gov/pdf/
nims/nims_doc_full.pdf.
---------------------------------------------------------------------------
    In preparing my remarks, I consulted with Chief Kelvin Cochran of 
the Shreveport (LA) Fire Department, who sent firefighting teams into 
New Orleans and coordinated the receipt of evacuees into Shreveport. I 
also consulted with Chief Richard Carrizzo, who heads the Southern 
Platte (MO) Fire Protection District and is a member of the IAFC's 
board, who I sent to the state emergency operations center (EOC) to 
help coordinate the fire service aspect of Hurricane Katrina response. 
My testimony today will include their first-hand experience with the 
use of the NIMS and the problems with command and control in the wake 
of the hurricane.
    In addition, I consulted Chief Jim Schwartz of the Arlington County 
(VA) Fire Department, who was the operations chief for that department 
on September 11, 2001, and was the incident commander at the Pentagon 
that day. He used the incident command system with great success. I 
wanted to share his experiences and recommendations with this committee 
to show what can be accomplished when an incident command system is 
used to its full potential.
    As noted at last year's subcommittee hearing on this issue, the 
IAFC endorses the NIMS as an efficient and effective way to bring 
resources together to respond to large-scale incidents. The reason the 
document is strong is that actual practitioners were intimately 
involved in drafting it. As long as responders and officials at all 
levels use the system, it will provide a solid chain of command and 
organizational system.
    The fire service has been using the incident command system (ICS) 
for decades. In fact, the state of California was the first to create 
and adopt an ICS system. It grew out of the devastating 1970 fire 
season when California's fire services were severely criticized for 
failing to provide leadership in areas of cooperation, command and 
control, communications, and training.
    Since then, America's fire service has fully embraced the ICS. 
Simply put, it is the way we do business. The ICS has allowed the fire 
service across the country to expand roles and resources as the 
complexity of an incident grows, incorporating local, state, and 
federal agencies.

Governments at All Levels Are Not Conversant in the NIMS
    Mr. Chairman, we testified last year that Fiscal Year (FY) 2006 was 
too soon to begin to tie the receipt of federal grant funding to NIMS 
implementation. We understand that the NIMS Integration Center (NIC) 
will require either NIMS implementation or a description of how the 
states will use homeland security grant funds to become compliant by FY 
2007. The IAFC believes that this is a reasonable timeline. However, 
the response to Hurricane Katrina made clear that this nation is 
nowhere near being ready to implement the NIMS, and that the NIC must 
take more aggressive steps to train government officials at all levels 
in this system--and to hold them accountable to it.
    Chiefs Cochran and Carrizzo both noted the utter lack of structure 
and communication at any level of government for the first 10 days 
following Hurricane Katrina. Rather, territorialism reigned. Chief 
Cochran calls this ``the disaster behind the disaster.'' He noted that 
the state had a system based on the NIMS, but did not utilize it. In 
fact, not even basic-level organizational management was being used. 
The fire service tried to fill the void by acting as they normally 
would: dispatching personnel and equipment where it was most needed.
    For example, Chief Cochran responded to a request by the Louisiana 
Department of Health and Hospitals' emergency medical services section 
to help rescue people from New Orleans. He deployed teams of 27 
department members, who took vehicles, rescue equipment, radios, and 
dogs with them, and worked on a three-day rotating cycle. Those teams 
rescued thousands of people from hospitals and the Superdome, despite 
the fact that there was no clear local organizational structure to whom 
they should report or request guidance. They just did what they were 
trained to do.
    In addition, Chief Cochran managed the decontamination, triage, 
treatment, and transportation of evacuees arriving in Shreveport. Since 
no one in New Orleans or Baton Rouge was coordinating the mass exodus, 
he had to literally and figuratively wait to see who showed up on his 
doorstep. No one called him to see how many shelters were available and 
what their capacity was and, since no one had been given formal 
authority for the transportation of evacuees, he had no one to ask. 
Busloads of people simply arrived needing showers, food and water, and 
clothing. He was given notice of one group that was to arrive at 3:00 
a.m., but they arrived hours later and in much greater numbers than 
Chief Cochran was told. His staff had to scramble to get the necessary 
equipment in place.
    Chief Carrizzo reported that the EOC did not have a formal command 
structure until two weeks after the hurricane hit and, even then, no 
one made clear who the incident commander was. It seemed that military 
officers were in charge because they acted as the decision-makers. 
However, they worked in a separate sphere from the rest of the 
individuals in the EOC. Also, no one knew what branch of the military 
these officers represented, or whether they were from the National 
Guard or U.S. Northern Command (NORTHCOM).
    The civilian leadership of the EOC was dysfunctional. For the first 
10 days, anyone could enter the EOC by simply signing a sheet of paper 
by the front door. The staff in the EOC did not clearly define who they 
represented. They also did not establish a formal process for making 
and tracking requests. Instead, they would simply chase down the 
appropriate person and ask them for what was needed, or write it down 
on a piece of paper. State-approved vendors roamed around and, for the 
first week, took orders from whoever placed them. In short, everyone 
simply relied on their professional knowledge to determine what needed 
to be done and acted accordingly.
    In addition, Louisiana's emergency response system suffered from 
problems common to other states. There was no statewide mutual aid 
system to move resources within the state to hurricane-affected areas. 
For the fire service, that meant that there was no clearinghouse for 
firefighting apparatus or personnel. In addition, the interim state 
fire marshal, who was charged with organizing the fire service for the 
remainder of the disaster, had no fire service experience. 
Unfortunately, it is common for state fire marshals not to have 
firefighting experience, because their job is to enforce building 
codes.
    Had an incident command system been established, a state-level 
official--with a corresponding federal official--would have been in 
place in the state EOC for each of the necessary aspects of response, 
including first responder coordination (for example, firefighting, 
search and rescue, hazardous materials cleanup, emergency medical 
services, and human services), communications, and intelligence. Each 
these officials would have had sufficient knowledge and experience to 
meet the needs of his or her respective community, and would have acted 
as a coordinator--or clearinghouse--for that community.
    Mr. Chairman, the purpose of this testimony is not to cast blame or 
question the compassion of the government officials who responded to 
Hurricane Katrina. The IAFC believes that this response serves as an 
important learning tool and example for why it is important for every 
federal, state and local disaster response official to fully understand 
the NIMS. In too many cases, a state or local jurisdiction may think 
that ``it can't happen here.'' This sense of complacency and lack of 
urgency delays NIMS implementation. Every level of government from the 
local fire chief to the principal federal officer must be fully trained 
and prepared to use the NIMS at the very beginning of a disaster.

The NIMS Can Work
    Mr. Chairman, everyone needs to understand and use the NIMS. We 
know from experience that incident command works. It worked in 
California on wildland fires, which is how it came into existence. For 
the past 20 years, the fire service has used it every single day on 
every single incident. What makes the ICS work is for every government 
agency at every level to fully understand it before an incident occurs. 
Those agencies must exercise together, plan together, understand what 
everyone brings to the table, and make hard decisions ahead of time 
about who will be in charge of what type of incident. We cannot save 
incident command for ``the big one,'' but must implement it for every 
incident, every day.
    The response to the Pentagon on September 11, 2001 provides a good 
example. Representatives of the Arlington County Fire Department, the 
Arlington County Police Department, and the Federal Bureau of 
Investigation (FBI) had been meeting for years prior to 9/11. Each 
understood the others' needs and capabilities and had established a 
high degree of trust. Because of those relationships and 
understandings, each agency was represented at the command post within 
10 minutes, and knew coming in that the Arlington County Fire 
Department would be the incident commander. In fact, the agencies had 
previously agreed that they would not work as a committee in response 
to an incident. Rather, one of them would have to be a ``first among 
equals.'' In the initial response to the Pentagon, the fire department 
was in charge, having worked out ahead of time how to treat victims and 
remove bodies without disturbing the law enforcement community's need 
to conduct a criminal investigation. Once the fire department had 
concluded its work, the FBI became the lead agency.
    This local command structure facilitated communications 
operability. In addition to the available interoperable communications 
systems, everyone benefited from having a unified command structure 
that facilitated communication between and within agencies. 
Firefighters on the scene could radio the command post, where each 
agency representative could then radio his or her personnel on the 
agency's specific radio system. This ability proved to be critical: 
When the operational commander noticed structural degradation and 
predicted the impending collapse of part of the Pentagon, he radioed 
the command center. A timely warning went out on all frequencies for 
personnel to evacuate, which saved countless lives.

How to Enforce Use of the NIMS
    The response to Hurricane Katrina showed that response to a 
catastrophic event will be on a national scale. All 28 Urban Search and 
Rescue teams were on the ground in the stricken areas. Firefighters 
from New York and Illinois came by the hundreds to assist the New 
Orleans Fire Department. If we as a nation are going to build a system 
to respond efficiently and effectively, we must build a national 
capacity to respond. Part of that capacity will be the ability to use 
the NIMS.
    To accomplish this goal, the DHS must require that everyone--from 
the executive level to the responder level--take the online 
introduction course. This course will be the absolute minimum necessary 
to establish a baseline capacity. Some agency heads, particularly those 
who already use incident command, may balk; however, they should take 
this course as a part of their professional duty.
    The DHS should then issue a list of practical steps that each state 
must accomplish over the next year to become NIMS-compliant. This list 
should include a requirement to use the NIMS in exercises as a 
prerequisite to receiving State Homeland Security Grant Program (SHSGP) 
funds. The DHS should define who should be involved in those exercises 
at the federal, state and local level. No government official should be 
left out. This kind of practice will be critical to developing a 
working knowledge and understanding of the NIMS. Without exercises, 
learning the NIMS would be like learning to ride a bicycle by reading a 
book.
    The DHS also should require both horizontal and vertical approaches 
to make the NIMS work. The horizontal approach would require 
regionalism. Though every response is local, no locality can respond 
alone when faced with a large incident. Agencies need to share manpower 
and equipment. As the Pentagon example illustrates, the existence of a 
mutual aid system in place provides measurably improved command and 
control communications across agencies and jurisdictions. This system 
must be given careful consideration by all involved parties, 
determining exactly what form help will take so that nothing is left to 
last-minute decisions or chance.
    To foster regionalism, the DHS should require each state's homeland 
security plan to identify regions within its borders, to create 
regional boards, and to require those boards to submit a mutual aid 
plan to the state for inclusion in the SHSGP application. This will 
require regions to work together before an incident occurs, rather than 
trying to exchange business cards on scene.
    The vertical approach would recognize that all incidents begin at 
the local level and work their way up. It also would recognize, as with 
the horizontal approach, that local agencies will most likely need help 
responding to a major event. For example, it would not have made sense 
for St. Bernard Parish to set up an incident management team in 
response to Hurricane Katrina, because the scope of the incident was 
simply too large. However, it would make sense for each metropolitan 
area to set up a standing incident management team to backfill and 
support surrounding areas as necessary. The states should set up 
standing incident management teams to support all local governments as 
necessary. The federal government should set up a standing incident 
management team to assist the states as necessary. Though the U.S. 
Forest Service teams that the federal government uses have done an 
admirable job, the response needs to reach across all agencies.
    Finally, we urge Congress to fully fund the NIC. The NIC is 
responsible for making sure that every agency responding to an incident 
understands and is compliant with the NIMS. While the House included 
$25 million for the NIC in H.R. 2360, the Department of Homeland 
Security Appropriations Act for Fiscal Year 2006, the Senate included 
no funding in its version of the bill. It is critically important that 
Congress fund this office in order to ensure that we are prepared to 
respond to future disasters.

Conclusion
    Thank you, Mr. Chairman, for inviting me here to speak to you 
today. It has been my pleasure to share the IAFC's views at this 
hearing. I look forward to answering any questions you may have.

    Mr. Reichert. Thank you so much, Chief.
    The chair now recognizes Mr. Bob Freudenthal, president of 
the American Public Works Association.

                  STATEMENT OF BOB FREUDENTHAL

    Mr. Freudenthal. Good afternoon, Chairman Reichert, Ranking 
Member Pascrell, and distinguished members of the panel. My 
name is Bob Freudenthal. I am the deputy general manager for 
the Hendersonville Utility District in Hendersonville, 
Tennessee, which is a suburb of the Nashville metropolitan 
area. I am also honored to be president of the American Public 
Works Association.
    Today, I speak on behalf of our 27,000 members who provide 
public works infrastructure and lifeline services to millions 
of people in rural and urban communities, both small and large.
    APWA has been and will continue to be an advocate for the 
development of policy which coordinates incident response 
across multi-disciplinary agencies in a way that saves lives 
and restores people, property and critical lifelines. APWA's 
membership includes public works directors, engineers, 
managers, transit authorities, water and wastewater 
professionals, and directors and senior managers of all areas 
of infrastructure. We run the gamut of city services, with one 
overriding commonality. We are the nuts and bolts of local 
government. We are the pulse of the local communities our 
citizens call home. Public safety is our priority at all times.
    Public works professionals manage the design, planning and 
operation of our communities' critical infrastructures and are 
on the frontlines in the face of natural disasters, terrorist 
attacks and other public emergencies, working with our partners 
represented at this table today. We are often the last ones to 
leave the scene as we manage the lengthy cleanup and 
restoration of disaster sites and other problem areas.
    As first responders in any catastrophic event, public works 
professionals are comprehensively trained in the nature of 
incident command. A part of the National Incident Management 
System, the Incident Command System is the organizational 
structure that facilitates and coordinates command, control and 
communication of a response. It is an all-hazard, all-risk 
approach to managing crisis response operations, as well as 
special planned events like the Olympics in Salt Lake City or 
other large gatherings.
    We understand the need for command and control to be clear 
so that responses minimize the loss of life, quickly restore 
critical lifelines and minimize property damage. Communication 
between all responders is critical to the efficiency and 
effectiveness of all response and recovery activities.
    To highlight this need for enhanced coordination between 
agencies, FEMA created training curriculum that better reflects 
the all-risk, all-hazard model, which includes such risks as 
floods, earthquakes, oil spills, fires, hurricanes and 
terrorist attacks. We encourage our members and member agencies 
to be certified and trained through this and other systems.
    Oftentimes, our crews are the first to arrive on the scene. 
In such cases, ICS provides for our personnel to assess the 
situation, determine the status of public safety, clear the 
debris for emergency response teams, and in many cases lead 
some of that response effort.
    Our unique role in incident command sets us apart from 
other disciplines. We go beyond damage assessment by clearing 
dangerous debris to ensure lives are protected, and then stay 
afterward to get to help rebuild. It is a big responsibility, 
but with the help of committees such as yours and federal tools 
like NIMS ICS, among others, and the coordinated effort of our 
partners here at this table, we will continue to have success.
    We are proud to say we have helped save people's lives, 
families, homes, livelihoods and tax dollars. The importance of 
continued planning for disasters cannot be underestimated. It 
is colorfully illuminated in the following quote by President 
Eisenhower: ``I have always found that plans are useless but 
that planning is indispensable.'' Plans require constant 
maintenance to meet changing conditions, new threats, and 
indeed to overcome past failures.
    During the recent catastrophe resulting from Hurricane 
Katrina, public works officials were called to Louisiana, 
Mississippi and Alabama. Our people were and continue to be on 
the streets cleaning debris, reestablishing electricity for 
millions of customers, providing clean water and inspecting 
public buildings to determine the safety of their occupants. 
However, a critical need continues for interoperable 
communications among responder groups to allow people to 
communicate effectively with other relief units and determine 
where resources are needed most.
    Our organization has an emergency management technical 
committee that has consistently supported, provided comments 
for, and helped to implemented HSPD-8, the National Response 
Plan and NIMS. In fact, we are holding a Web broadcast this 
December to inform our community of public works of the 
importance of NIMS implementation and encourage their support.
    We continue to support an emphasis on cross-discipline 
communication and training for our members, public officials 
and all first-responder groups. APWA has many members with 
intimate knowledge and direct experience of recovering from and 
rebuilding after major catastrophes. Paul Brun, Public Works 
Director of Oklahoma City, played a critical role in recovery 
efforts after the 1995 bombing of the Alfred Murrah Federal 
Building.
    Our emergency management committee chairman, Mary Ann 
Marrocolo, is the director of plan management in the Office of 
Emergency Management for the city of New York. She has gained 
first-hand experience of the crucial public works role played 
on September 11, 2001, as well as in the countless other 
emergencies the city has faced. They can attest to the 
importance of communication during a catastrophe.
    To summarize, the American Public Works Association 
recognizes the importance of tools like ICS that emphasize 
cross-discipline communications and training for our members, 
public officials and all first-responder groups. We will also 
continue to support increased funding for interdisciplinary 
training so that we can better be prepared for the challenges 
we will all face in the future.
    We realize there are gaps in the current preparedness 
strategies, but with cooperation and an eye to lessons learned, 
we believe that our future will be one in which we can enjoy 
greater security through increased awareness, communication and 
planning.
    We would again like to thank the chairman of this committee 
and the members of this committee for allowing us a seat at the 
table, and we stand ready to work toward a better future.
    Thank you.
    [The statement of Mr. Freudenthal follows:]

                 Prepared Statement of Bob Freudenthal

    Good Afternoon. Chairman Reichert, Ranking Member Pascrell, 
distinguished members of the panel, my name is Bob Freudenthal and I am 
the Deputy General Manager of the Hendersonville Utility District in 
Hendersonville, Tennessee. I am also President of the American Public 
Works Association, or APWA. I am here today on behalf of the 27,000 
public works officials and nearly 2000 public agencies that are members 
of APWA. We are an organization dedicated to providing public works 
infrastructure and life line services to millions of people in small 
and large, rural and urban communities.
    I appreciate and thank you for the opportunity to speak today about 
the role of public works in the incident command system during 
catastrophes. I know I speak for all APWA public works officials when I 
say we are indeed grateful to be sharing our thoughts with you during 
this critical time for the ongoing development of our nation's 
emergency response plans. APWA has been and will continue to be an 
advocate for the development of policy which coordinates incident 
response across multi-disciplinary agencies in a way that saves lives 
and restores property and critical lifelines.
    Let me take a moment to describe who public works officials are and 
what we do, and then I will go into more detail about the role APWA 
members play in the incident command system during catastrophes.
    APWA's membership includes public works directors, city engineers, 
directors and senior managers of all areas of infrastructure, city 
managers, transit authorities, and water and waste water treatment 
professionals among many others. Public works officials manage the very 
essence of our nation's cities: we plan the city's infrastructure; we 
manage, maintain and secure public buildings, vehicles and equipment, 
sewer systems, water and wastewater systems; we maintain public 
grounds, turnpikes, highways and port authorities; we ensure that 
traffic congestion is minimized and that all roads and bridges are 
maintained in safe and workable condition. Public works officials are 
first responders: we work alongside police, fire, and emergency 
services to ensure that water is flowing through fire hoses; traffic 
lights are operating and traffic is moving; barricades are up; debris 
is removed, and that the public is safe. Additionally, we are often the 
last ones to leave the scene as we manage the lengthy cleanup and 
restoration of any disaster site.
    We run the gamut of city services with one overriding commonality: 
we are the nuts and bolts of local government. We are the pulse of 
local communities that our citizens call ``home.'' Public works 
professionals manage the design, planning, and operation of our 
communities? critical infrastructures--roads, bridges, and water 
systems--and are on the front lines in the face of natural disasters, 
terrorist attacks and other public emergencies. Public health and 
safety is our priority at all times.
    Having explained what we do, allow me to take a moment to elucidate 
our history and role in disaster response. As first responders in any 
catastrophic event, public works professionals are comprehensively 
trained in the nature of incident command. A part of the National 
Incident Management System (NIMS), the Incident Command System (ICS) is 
the organizational structure that facilitates and coordinates the 
command, control, and communication of a response. It is an ``all 
hazard--all risk'' approach to managing crisis response operations as 
well as planned special events, such as the Olympics in Salt Lake City 
or other large, routine public gatherings. We understand the need for 
command and control to be clear so that the response minimizes loss of 
life, quickly restores critical lifelines and minimizes property 
damage. Communication between all responders is critical to the 
efficiency and effectiveness of all response and recovery activities. 
Incidents with many ranges of significance require our participation in 
the incident command structure.
    ICS is based on best practices developed from years of large-scale 
emergency response operations, such as multi-state wildfires, and 
addresses many of the incident management challenges faced by local, 
state, and federal officials in response to disasters. To highlight 
this need for enhanced coordination between agencies, the Federal 
Emergency Management Agency (FEMA) has created training curriculum that 
better reflects the ``All Hazard--All Risk'' model, which includes such 
risks as floods, earthquakes, oil spills, fires, hurricanes and 
terrorist attacks. We encourage our members and member agencies to be 
certified and trained through this, and other systems.
    Oftentimes, public works crews are the first to arrive on the scene 
of a disaster. Emergency services need public works to clear the way in 
order to respond. In such cases, ICS provides for our personnel to 
immediately assess the situation, determine the status of public 
safety, and in many cases lead a response effort. For example, at the 
scene of a water main break, public works crews work to locate, isolate 
and stop a leak as well as pump water out of impacted areas. And other 
times, the role of incident commander transfers to the public works 
director to complete the recovery.
    Public works officials know what it takes to make infrastructure 
less susceptible to damage from disasters as well as rebuild 
infrastructure after a disaster. We know how to get the roads and water 
mains in working order, how to get the power back up, how to rebuild or 
reinforce public buildings damaged by natural or man-made disaster, how 
to identify equipment needs, and how to assist other first responders 
in dealing with immediate threats.
    Our unique role in Incident Command sets us apart from other 
disciplines. The role public works plays in debris management (often 
the first step taken on the road to recovery), reconstruction of the 
community, restoring lifeline services such as power and telephone 
service, and using public works engineers in designing and implementing 
search and rescue operations, are quite varied in nature. Yet, all are 
essential when it comes to incident management during a catastrophic 
event.
    Therefore, our role in incident command is not just assessing the 
damage and then letting everyone else know how we plan to fix it--it is 
also our mission to work with an eye on making sure that lives are 
protected in the future. It's a big responsibility, but with the help 
of Committees such as yours, and Federal tools like the National 
Incident Management System (NIMS) and the Incident Command System 
(ICS), among others, we have had many successes. We are proud to say we 
have saved people's lives, their homes, their livelihoods, their 
property, their heartache, and their tax dollars.
    However, while the plans we have in place can do much to mitigate 
the effects of a catastrophic event, they in and of themselves are not 
enough. The importance of continued planning for disaster cannot be 
underestimated--and is colorfully illuminated in the following quote by 
President Eisenhower, ``I have always found that plans are useless, but 
that planning is indispensable.'' Plans require constant maintenance to 
meet changing conditions, new threats and indeed, to overcome past 
failures.
    During the recent catastrophe resulting from Hurricane Katrina, 
public works officials were called in to assess the damage in 
Louisiana, Mississippi and Alabama. Our people were and continue to be 
on the streets clearing debris, working to reestablish electricity for 
millions of customers, working to provide clean water and inspecting 
public buildings to determine the safety to their occupants. However, 
there continues to be a critical need for interoperable communications 
among responder groups to allow people to communicate effectively with 
other relief units, and determine where resources are needed most.
    Because many of our members across the country wanted to help in 
the wake of Katrina, the American Public Works Association immediately 
posted information for its members encouraging them to work within 
established Department of Homeland Security and FEMA procedures and the 
congressionally-ratified Emergency Management Assistance Compact (EMAC) 
which provides form and structure to interstate mutual aid.
    The American Public Works Association has an Emergency Management 
Technical Committee within our organization that has consistently 
supported, provided comments for and helped to implement HSPD-8, the 
National Response Plan (NRP) and the National Incident Management 
System (NIMS). We are hosting a web broadcast this December to ensure 
that the public works community is fully informed of the importance of 
NIMS implementation. We continue to support an emphasis on cross-
discipline communication and training for our members, public officials 
and all first responder groups. APWA is also working with Lessons 
Learned Information Sharing (LLIS.gov) to capture lessons learned from 
the public works community to share with the emergency response and 
homeland security communities. These lessons learned will help Incident 
Command, regardless of incident size, have a better understanding of 
the capabilities that public work organizations bring to preparedness, 
response, and recovery.
    In addition to ICS, public works personnel have been available to 
interoperable communications groups over the past four years. As we 
have in the past, we are again serving on the President's HSPD-8 
working group, with a goal to ``establish policies to strengthen the 
preparedness of the United States to prevent and respond to threatened 
or actual domestic terrorist attacks, major disasters, and other 
emergencies.''
    Our Emergency Management Committee continues to advocate the 
credentialing of key public works officials who play a critical role in 
the ICS. APWA is well represented on the DHS/FEMA Public Works Working 
Group that is focused on credentialing. Unlike our partners in law 
enforcement, fire, and emergency services, public works officials are 
not continuously posed for emergency response but are responsible for 
the continuation of daily service delivery to our communities. During a 
disaster, public works is not only involved in the response and 
recovery but also the continuation of those critical service delivery 
areas--water, sewer, solid waste, transportation and safety. Our 
credentials for emergency response are in addition to our credentials 
of our every day jobs.
    The American Public Works Association has many members with 
intimate knowledge and direct experience of what it takes to recover 
from major catastrophes. Paul Brum, Public Works Director of Oklahoma 
City, played a crucial role in the recovery after the 1995 bombing of 
the Alfred P. Murrah Federal Building. Our Emergency Management 
Committee Chairman, MaryAnn Marrocolo, is the Director of Plan 
Management in the Office of Emergency Management for the City of New 
York, and gained first hand experience of the crucial role public works 
played on September 11, 2001, as well as in the countless other 
emergencies the city has faced. Diane Linderman, former Public Works 
Director of Richmond, Virginia, led that city's department when 
Richmond was devastated by the winds of Hurricane Isabel and the 
consequential flooding from Hurricane Gaston. Brian Usher, Director of 
Public Works and Engineering for the City of Zion, Illinois, dedicates 
substantial time as a course instructor and trainer at the Emergency 
Management Institute (EMI) in Emmitsburg, Maryland. The list goes on.
    To summarize, the American Public Works Association recognizes the 
importance of tools like ICS that emphasize cross-discipline 
communication and training for our members, public officials and all 
first responder groups. We will also continue to support increased 
funding for interdisciplinary training so that we can be better 
prepared for the challenges we will all face in the future. We realize 
that there are gaps in current preparedness strategies, but with 
cooperation and an eye to lessons learned, we believe that our future 
will be one in which we can enjoy greater security through increased 
awareness, communication and planning.
    We again would like to thank the Chairman and this Committee for 
allowing us a seat at the table as we look forward into the future.

    Mr. Reichert. Thank you, Mr. Freudenthal.
    The chair now recognizes Mr. Robert Garner, president and 
CEO of the American Ambulance Association.

                   STATEMENT OF ROBERT GARNER

    Mr. Garner. Chairman Reichert, Ranking Member Pascrell and 
members of the committee, we greatly appreciate the opportunity 
to speak before you.
    Chairman Reichert, I would like to join my colleagues in 
congratulating you. It is a pleasure to have a first responder 
sitting in this extremely important position. Congratulations, 
sir.
    I am Robert Garner and currently serve as president of the 
American Ambulance Association. I am the senior vice president 
of Emergency Medical Services Corporation, parent for American 
Medical Response and EmCare companies.
    The American Ambulance Association is the primary trade 
organization representing ambulance providers, both emergency 
and non-emergency, for their respective communities. The AAA is 
composed of over 750 ambulance operations, providing services 
in all 50 states.
    Member companies employ approximately 100,000 emergency 
medical technicians and paramedics in their workforce. AAA 
members include private, public, fire and hospital-based 
agencies covering urban, suburban and rural areas throughout 
America. AAA was formed in 1979 in response to the need for 
improvements in medical transportation and emergency medical 
services.
    The association serves as a voice and clearinghouse for 
ambulance service providers who view pre-hospital care not only 
as a public service, but also as an essential tool as part of 
the total continuum of care in the public health care system. 
It is in my elected role as president of the AAA that I appear 
before you today and provide a perspective of the association.
    The immediate response to a catastrophic disaster, act of 
terrorism or other public health emergency involves many local 
public safety, public health and health care organizations. As 
first responders, America's ambulance service providers are an 
essential resource and a vital component of each community's 
emergency response system.
    During the recent response to Hurricanes Katrina and Rita, 
at the request of the Federal Emergency Management Agency, over 
500 ambulances and crews from around the country assisted local 
EMS agencies in their response to the catastrophic events along 
the Gulf Coast. Member companies responded professionally and 
expeditiously.
    During the response to a natural or a manmade disaster, the 
role of an EMS provider includes patient triage, 
decontamination, treatment and transport. The role also 
includes hazard recognition, symptom surveillance and 
reporting, disaster shelter staffing and resupply, on-scene 
medical standby, and transport and redistribution of patients 
to better utilize available receiving hospital resources.
    America's 911 emergency medical service providers are a 
diverse group of public, private, hospital and volunteer-based 
services. Indeed, many stories of heroism and sacrifice include 
representatives from all these agencies as they have responded 
to natural and manmade disasters.
    Notably, just 2 weeks ago, President Bush posthumously 
awarded Yamel Merino, medic with TransCare Ambulance Service of 
New York, the 9/11 Heroes Medal of Valor. Indeed, each day 
somewhere in America, an EMT or paramedic may be placed in 
harm's way to potentially save the life of another.
    The American Ambulance Association has been requested to 
present its perspective in numerous forums over the past few 
years concerning incidents of high consequence as they are 
being considered. In all cases, the AAA has proffered three key 
components that must be addressed for a successful response and 
incident command capability.
    Firstly, integration, as has been discussed, which would 
include planning, setting standards and funding.
    Secondly, and very critical for our responders, there must 
be access to standardized and coordinated training. There must 
be personal protective equipment provided for every responder 
to any incidence of high consequence, and interoperability of 
communications and tactical equipment. We have realized how 
critical that is in the most recent incidents. We must also 
have caches of medication for the event of high consequence.
    And finally, coordination, planning for patient evacuation 
and repatriation, and a requirement for resources that exceed 
the local capacity.
    In conclusion, as demonstrated during the response to 
Hurricanes Katrina and Rita, all providers become potential 
first responders. We feel these guiding principles are 
critical. We must assure the safety of EMS personnel and 
ambulance patients, the security of the ambulance facilities, 
and the supply inventories and vehicles. We must integrate and 
effectively utilize local ambulance services in the local, 
state and federal incident management and emergency management 
systems. Finally, we must establish timely and equitable 
funding mechanisms to support and maintain the essential 
capabilities of the first-responder system.
    Chairman Reichert, Ranking Member Pascrell and members of 
the committee, I again thank you for the opportunity to address 
this most important issue and would ask that my written 
statement be made part of the record.
    Thank you, sir.
    [The statement of Mr. Garner follows:]

                 Prepared Statement of Robert L. Garner

I. Introduction
    Chairman Reichert, Ranking Member Pascrell and members of the 
Subcommittee on Emergency Preparedness, Science and Technology, I 
greatly appreciate the opportunity to speak before you today.
    I am Robert L. Garner, and currently serve as the President of the 
American Ambulance Association (AAA). I am the Senior Vice President of 
Emergency Medical Services Corporation, parent company of American 
Medical Response and EmCare companies, national providers of emergency 
and non-emergency ambulance services as well as hospital physician 
services.
    The American Ambulance Association is the primary trade association 
representing agencies that provide emergency and non-emergency 
ambulance services for their respective communities. The AAA is 
composed of over 750 ambulance operations providing services in all 50 
states. Member companies employ approximately 100,000 paramedics and 
emergency medical technicians (EMT) and in their workforce. AAA members 
include private, public, fire and hospital-based providers covering 
urban, suburban, and rural areas throughout America. The AAA was formed 
in 1979 in response to the need for improvements in medical 
transportation and emergency medical services. The Association serves 
as a voice and clearinghouse for ambulance service providers who view 
pre-hospital care not only as a public service but also as an essential 
part of the total continuum of care in the public heath care system.
    It is in my elected role as President of the AAA that I appear 
before you today, and provide the perspective of the Association 
regarding ``Incident Command, Control, and Communication during 
Catastrophic Events.''

II. Summary of Policy Recommendations
    Ambulance service providers, who are comprised of paramedics and 
emergency medical technicians, serve as a core part of the first 
responder's community and are a critical part of the emergency response 
system. However, private providers often face difficulty in being 
included in the planning and response to catastrophic events and 
obtaining the funding necessary to be prepared when they are asked to 
respond. To ensure that all ambulance service providers are effectively 
integrated in to the National Incident Management System, I recommend 
the following:
        <bullet> Integrate government and non-government emergency 
        medical service providers into local, state and federal 
        planning and exercises including appropriate mutual aid 
        agreements;
        <bullet> Ensure government and non-government emergency medical 
        service providers are eligible have access to communications 
        equipment and systems to achieve on scene communications 
        interoperability; and,
        <bullet> Ensure government and non-government service emergency 
        medical service providers have access to the appropriate 
        personal protective equipment and other on scene resources 
        necessary to support their critical public safety missions 
        including evacuation and response.

III. Role of Ambulance Service Providers as First Responder
    The immediate response to a catastrophic disaster, act of terrorism 
or other public health emergency involves many local public safety, 
public health and health care organizations. As first responders, 
America's ambulance service providers are an essential resource and 
perform vital services as part of each community's emergency response 
system. This was abundantly clear during the recent response to 
Hurricanes Katrina and Rita in which over five hundred ambulances, 
comprised of paramedics and emergency medical technicians, from around 
the country assisted local EMS agencies in their response to the 
catastrophic events along the gulf coast.
    During the response to a natural or man-made disaster, the role of 
an ambulance service provider includes patient triage, decontamination, 
treatment, and transport. Their role also includes hazard recognition, 
symptom surveillance and reporting, disaster shelter staffing and re-
supply, on-scene medical stand-by, and transport and redistribution of 
patients to better utilize available receiving hospital resources. Many 
agencies have begun developing ``disaster response teams'' to effect 
rapid deployment in support of local, state and federal resources.
    America's 9-1-1 emergency medical services (EMS) providers are a 
diverse group of public, private, hospital and volunteer-based 
services. Indeed, many stories of heroism and sacrifice include 
representatives from all these agencies as they have responded to 
natural and man-made disasters. Notably, just two weeks ago, President 
Bush posthumously awarded Yamel Merino, a paramedic with TransCare 
Ambulance Service of New York, the 9/11 Heroes Medal of Valor. Indeed, 
each day somewhere in America, an EMT or Paramedic may be placed in 
harm's way to potentially save another's life.
    During a catastrophic disaster or ``Event of High Consequence,'' 
local ambulance services providing emergency medical services are an 
essential resource and a vital part of the emergency response system. 
In a review of the nation's largest 200 cities, including those most 
vulnerable to attack, emergency ambulance services are provided by 
private, public, volunteer, and hospital-based agencies. Experience has 
shown that non-emergency ambulance providers also often serve as 
``first responders'' by dedicating essential vehicle and personnel 
resources within the first hours of a disaster.

IV. Importance of Private-Public Partnerships
    Unlike fire and police, which are typically public sector entities, 
the private sector is a major provider of emergency and non-emergency 
medical services across the nation. While EMS system design varies 
greatly, in almost all cases there is participation by both public and 
private entities. For this reason, it is critical that a strong 
partnership exist between public and private first responders and those 
who manage the incident command system. Furthermore, the successful 
management of any disaster response is directly related to the 
coordination of all assets being deployed for mitigation of serious 
injury and death.

V. Commitment to National Incident Management System
    As the Department of Homeland Security and FEMA implement the 
National Response Plan, the AAA has been working with our members to 
assure that our providers are compliant with the ICS training 
requirements established by the National Incident Management System 
(NIMS). We support the full implementation of NIMS as it establishes 
standardized incident management processes, protocols, and procedures 
that all responders--Federal, state, tribal, and local--will use to 
coordinate and conduct response operations. As stated by the NIMS 
Integration Center, we agree that national preparedness and readiness 
in responding to and recovering from an incident will significantly 
improve once all of the Nation's emergency responders and their 
authorities will be using a common language and set of procedures.

VI. Challenges of Incident Command, Control and Communications
    The response by ambulance service providers locally and from across 
the country to the catastrophes of Hurricanes Katrina and Rita 
represents the very best of the EMS community. The Federal Emergency 
Management Agency requested AAA's assistance in providing member 
companies to respond to Louisiana to assist the local EMS effort. AAA 
member companies responded to this request by dispatching over 215 
ambulances to the region. A similar request of the Association resulted 
in 250 ambulances being dispatched to Texas in anticipation of 
Hurricane Rita. While this ``emergency coordination'' effort has not 
historically been a core competency of the American Ambulance 
Association, upon being alerted, member companies responded 
professionally and expeditiously.
    The American Ambulance Association has been requested to present 
its perspective in various forums as preparations for Incidents of High 
Consequence are being considered. In all cases, the AAA has offered 
four key components that should be addressed for a successful response 
and incident command capability. The components are as follows:
        <bullet> Standardized and coordinated training;
        <bullet> Personal Protective Equipment (clothing/respirators);
        <bullet> Interoperable communications and Tactical equipment; 
        and,
        <bullet> Caches of medications/medical equipment for Incident 
        of High Consequence.

VII. Specific Policy Challenges and Recommendations
    Because of the nature of our services, members of the American 
Ambulance Association have been part of the first responder team to 
America's most devastating disasters, including September 11, the 
anthrax attacks, Hurricane Katrina, Hurricane Rita and numerous other 
regional and multi-state mass casualty events. Based on this extensive 
experience, we offer the following recommendations to the challenges we 
face in responding to the medical needs of our patients and 
communities, and to ensure the effective participation of ambulance 
providers in the National Incident Management System:
    Challenge #1: Planning, Exercises and Mutual Aid Agreements--
Ambulance providers operate at the intersection of the public health, 
public safety and health care fields, and, there is great diversity in 
the types of providers delivering ambulance services and the designs of 
those delivery systems. This diversity contributes to the fact that 
many ambulance services are sometimes excluded from local and state 
emergency preparedness and response activities. Furthermore, there are 
hurdles associated with complying with FEMA's general requirement to 
obtain mutual aid agreements prior to an event in order to be eligible 
for federal disaster reimbursement. Ambulance providers respond to 
mutual aid requests from long distances--including neighboring cities, 
counties and even states. It is difficult for a local ambulance 
provider to secure prior mutual aid agreements with every local 
community that may request services in the future.
    Recommendation #1: As recent events of national consequence have 
demonstrated, government and non-government emergency medical services 
are an essential asset in the evacuation, response and recovery phases 
of a national disaster. Government and non-government ambulance 
services must be fully integrated in the planning, training and 
exercise activities at the local, state and federal level. Practical 
mechanisms must be instituted to streamline and document all mutual aid 
requests for assistance. As local, regional and state mutual aid plans 
are strengthened and broadened, the planning process should formalize 
mutual aid agreements with all potential responders and service 
providers. These are critical first steps in assuring that the goals of 
the National Incident Management System are achieved.
    Challenge #2: Communications Interoperability--Based on a recent 
AAA membership survey, AAA members have reported that communications 
systems and equipment remain a significant operational need. In many 
communities, ambulance service providers face challenges obtaining 
access to radio frequencies. Studies clearly show the lack of a 
compatible spectrum as well as a spectrum that is actually available to 
local emergency responders, including emergency medical service (EMS) 
providers. Despite the spectrum documented by the Federal 
Communications Commission, across the nation currently only two 
frequencies are dedicated to EMS (a local EMS frequency and a national 
EMS frequency). During recent incidents of major consequence, AAA 
members experienced serious gaps in maintaining communications with 
incident command authorities.
    Recommendation #2: Additional spectrum must be made available to 
government and non-government emergency medical service providers and 
providers must be involved in the communications interoperability 
planning activities at the local, state, regional and national level. 
Therefore, government and non-government emergency medical service 
providers must be eligible for grants to assure communications systems 
support our critical public safety mission. Access to communications 
equipment and systems is a critical component of any effective incident 
command system.
    Challenge #3: On Scene Resources--Many ambulance service personnel 
that responded to recent major incidents did not have access to the 
appropriate personal protective equipment necessary for the 
environments in which they would be operating including hazardous 
scenes and toxic flood waters. Ambulance refueling, repair and 
restocking are important considerations as well.
    Recommendation #3: To provide an effective response and to protect 
the health and safety of our personnel, all medics, including those who 
have the potential to respond in a mutual aid capacity, must be 
protected. Personnel must have access to and must be trained on the 
appropriate procedures for use of personal protective equipment that 
may include tyvec suits, gloves, masks, hard hats, bunker suits and 
bio-hazard storage and disposal equipment. Procedures must be developed 
to assure access to vaccines and antidotes when necessary. In order for 
on scene personnel to be effective in the incident command structure, 
these on scene resources are essential.

VIII. ``Best Practices'' Recommendations on Incident Command Systems
    In order to achieve a fully integrated national emergency response 
system that is adaptable to any terrorist attack and all types of 
national disasters, the following best practice components are 
essential.
    This list was developed by the AAA to assist local, state and 
federal officials, in addition to ambulance service providers, in 
planning, training and equipping the nation's ambulance services in 
accordance with the National Incident Management System.
    Incident Command Structure and Emergency Management System: 
Ambulance service providers should be integrated into the overall 
incident command structure. For resource planning, legal and 
reimbursement purposes, local officials must document requests for all 
types of assistance from ambulance providers. Services requested may 
include, but are not limited to: patient triage, treatment and 
transport; medical stand-by and first aid services on-scene, at 
disaster shelters or at first aid stations; requests for additional 
medical personnel, supplies and equipment; non-emergency transport and 
redistribution of patients to free-up receiving hospital bed-space; and 
other emergency services. State and local emergency managers must 
integrate ambulance providers into each phase of the emergency 
management planning process: mitigation, preparedness, response, and 
recovery and include an ambulance representative in the emergency 
operations center.
    Community-Based Planning: Ambulance service providers must be 
represented in the planning processes at the local, state and federal 
level. These processes must facilitate coordination and integration 
among various public and private (non-profit and for-profit) 
organizations in order to maximize the effectiveness of all local, 
regional (such as mutual aid), state and federal resources. Logistical 
planning must assure the ability to sustain long-term disaster 
operations and critical support functions, including mental health and 
CISD (critical incident stress debriefing) support of workers and their 
families. Ambulance services must appropriately interface with public 
health, law enforcement, fire suppression, hazardous materials and 
other responding agencies to hazardous scenes.
    Personnel Protection & Safety: By definition, first responders, 
including emergency medical service and ambulance service personnel 
(i.e., ambulance medics), are the first on the scene of an emergency 
incident. Past experience has shown that proper equipment, training and 
procedures are necessary to prevent well-meaning rescuers from becoming 
victims themselves, especially in the case of a biological, chemical, 
radiological or nuclear attack. To provide an effective response, to 
serve our communities and most importantly, to protect the health and 
safety of our personnel, all medics, including those who have the 
potential to respond in a mutual aid capacity, must be protected. 
Personnel must have access to and must be trained on the appropriate 
procedures for use of personal protective equipment that may include 
tyvec suits, gloves, masks, hard hats, bunker suits and bio-hazard 
storage and disposal equipment. Procedures must be developed to assure 
access to vaccines and antidotes when necessary.
    Training, Exercises and Continuing Education: Ambulance services 
(both emergency 9-1-1 units and units regularly performing non-
emergency inter-facility transports) immediately become ``first 
responders'' in the early stages of an emergency incident. Proper 
training of all personnel with the potential to respond to disaster and 
terrorist incidents is essential to assure effective use of resources 
and to prevent crews from inadvertently becoming casualties themselves. 
Each local ambulance service provider that is listed as a disaster 
resource by the local community's ``emergency operations officials'' 
must be included in training programs. The following types of training 
should be considered: nuclear, biological, chemical and radiological 
terrorism awareness training, incident command system procedures, 
biological/chemical symptom recognition and protocols, multi-casualty 
incident drills and exercises, and cross-training of medics as public 
health workers. Plans should include provisions for training updates, 
new employee training and integration with continuing education 
programs.
    Communication System: All scene responders, including ambulance 
medics, must have access to improved on-scene communications, such as 
radios and cellular telephones, to assure communication between 
agencies. Larger incidents involve even greater numbers of emergency 
response personnel that often must respond from long distances. 
Response personnel must have equipment, systems and procedures that 
assure seamless on-scene communications. Emergency medical dispatchers 
must be trained to screen for biological and chemical events. Other 
considerations include planning for additional radios and cellular 
phones and a back-up communication center in the event all or parts of 
the communications center or system is inoperable.
    Disease Surveillance and Reporting System: In the case of chemical, 
biological, radiological and nuclear weapons, the emergency medical 
services system, and specifically local ambulance dispatch (call-
taking) centers, may be one of the early points of detection. Proper 
reporting and analysis of this crucial information can assist in the 
detection, identification and early implementation of patient triage 
and treatment protocols. Procedures must be implemented to coordinate 
and integrate these essential assets with the local public health 
department's disease symptom surveillance and identification system. 
Recent computer-aided dispatch software enhancements enable emergency 
medical dispatchers to identify sudden increases in certain caller 
complaints in real time. Ambulance medics could be cross-trained for 
various public health functions according to response plans.
    Facilities, Equipment and Vehicles: Ambulance service providers 
need to plan and develop stockpiles of secure food, water, personal 
items, uniforms, and bedding for events that require sustained 
operations requiring maximum staffing. Operations facilities may be 
utilized as personnel sleeping quarters. The needs of their families 
are also important to assure personnel can focus on the community's 
needs. Ambulance service providers will need to establish a 
decontamination station for personnel, vehicles, supplies and equipment 
and appropriate disposal of contaminated uniforms, medical supplies, 
patient bedding and other materials. Ambulance services must develop 
procedures for securing facilities, equipment and vehicles to assure 
they are not sabotaged, stolen or misused.
    Medical Supplies and Medications: Before additional federal 
stockpiles (referred to as ``Push Packs'' under the proposed plan) 
arrive in affected communities, local first responders, public health 
and health care providers will need the capacity to distribute adequate 
levels of medical supplies and medications during the first 12 hours of 
an incident. The local and regional planning and funding process must 
account for these purchase, storage and distribution costs. Mass-
casualty incidents will require additional pharmaceuticals, such as, 
Valium, Atropine, antidote kits, Mark 1 kits and an antibiotic (i.e., 
Cipro) cache for field personnel. Additional medical supplies will also 
be required, such as, intubation, bag mask, and nebulizer supplies; 
sheets, drapes, and poly masking tape for patient packaging and 
additional immunization supplies.
    Public Education: Through the appropriate local, state and federal 
entities, the public must be educated before an emergency incident, and 
must receive regular information updates during an incident especially 
if there is a suspected biological, chemical or radiological exposure. 
The focus of the information should include: what to do in an 
emergency; where disaster shelters are located; where to receive 
treatment and where not to receive treatment (in order to contain and 
prevent further contamination); and, which agencies to contact for more 
information or to report critical information to emergency officials. 
The public has learned to rely on the local 9-1-1 system and the 
community's emergency response agencies for information and these 
agencies should play a key role in calming the public's understandable 
fears and anxiety and to correct false information.
    Mutual Aid Agreements: Generally, the larger the incident, man-made 
or natural, the greater the scope of mutual aid response required. As a 
result of large mass casualty incidents, ambulance providers respond to 
mutual aid requests from long distances--including neighboring cities, 
counties and even states. It is impossible for a local ambulance 
provider to secure prior mutual aid agreements with every local 
community that may request services in the future. Therefore, practical 
mechanisms must be instituted to streamline and document all mutual aid 
requests for assistance, especially when there is no time to work out 
the financial details before a response is initiated. As local, 
regional and state mutual aid plans are strengthened and broadened, the 
planning process should formalize mutual aid agreements, including 
financial arrangements, with all potential responders and service 
providers.
    Initial Emergency Preparedness Funding: Because existing resources, 
surge capacities and community needs will vary, each community's 
specific funding requirements will be unique. As an example, however, 
one community recently developed a local plan for response to weapons 
of mass destruction. According to this plan, the local emergency 
ambulance provider's funding needs for planning, employee training, 
personnel protective equipment, medical supplies and medications 
equaled approximately $5 per resident for a community of 285,000 
residents, totaling approximately $1.4 million in start-up costs. Each 
community will also need to budget for the ongoing costs of training, 
equipment replacement and repurchase of expired medications. Federal 
funds must flow to all local entities in the emergency response system, 
including private (non-profit and for-profit) service providers. 
Immediate and sustained funding will also be required to increase and 
maintain the health care capacity (or ``surge capacity'') needed to 
respond to mass casualty incidents of various types. Program funding 
should factor in the ongoing costs of the planning and training process 
that is continuously reviewed and refined.
    Emergency Incident Reimbursement: Each organization that responds 
to a natural disaster or terrorist incident will incur costs for 
personnel salaries; overtime expenses; fuel; travel expenses; 
specialized equipment such as generators; drugs and supplies; 
replacement costs for damaged or lost equipment; supplies and equipment 
for decontamination stations and other direct costs. Even though the 
service may have performed flawlessly in the public's interest, local 
emergency responders can very quickly face financial devastation as a 
result. Under existing laws governing federally declared disasters 
(i.e., the Stafford Act), all types of ambulance service providers 
(including private non-profit and for-profit services) are eligible for 
federal reimbursement under both ``emergency protective measures'' and 
``emergency work'' provisions. Ambulance services can also be 
reimbursed as an independent contractor under provisions regarding 
``use of local firms and individuals.'' Local and state officials must 
assist ambulance providers involved in a disaster response with the 
process of submitting requests for federal reimbursement.

IX. Conclusion
    In conclusion, as demonstrated most recently in the response to 
Hurricanes Katrina and Rita, government and non-government emergency 
medical service providers are a critical component of the state, local 
and the national response to catastrophic events. In these types of 
situations, all ambulance service providers, regardless of provider 
type or whether the units are emergency or non-emergency, become 
potential first responders.
    Ambulance service providers stand ready to assist in responding to 
future catastrophic events and assisting in the development of 
comprehensive and integrated pre-planned response guidelines and 
protocols. However to assure effectiveness, the local, state and 
federal planning process must account for the resources needed by all 
America's emergency medical services systems and ambulance service 
providers based on the following guiding principles:
        <bullet> Assure the safety of ambulance service personnel and 
        ambulance patients, and the security of ambulance facilities, 
        supply inventories and vehicles;
        <bullet> Integrate and effectively utilize local ambulance 
        services in the local, state and federal incident management 
        and emergency management systems;
        <bullet> Establish timely and equitable funding mechanisms to 
        support and maintain the essential capabilities of the first 
        responder system
    I again thank Chairman Reichert, Ranking Member Pascrell and 
members of the Subcommittee on Emergency Preparedness, Science and 
Technology for the opportunity to testify on this important issue.
    I will be more than happy at the appropriate time to answer 
questions that Subcommittee members have for me.
    Thank you.

    Mr. Reichert. Thank you, Mr. Garner.
    The chair now recognizes Mr. David Liebersbach, Immediate 
Past president of the National Emergency Management 
Association, to testify.

                 STATEMENT OF DAVID LIEBERSBACH

    Mr. Liebersbach. Thank you, Chairman Reichert, Ranking 
Member Pascrell and distinguished members of the committee for 
allowing me to provide you with testimony.
    My added congratulations, Mr. Reichert, for your ascension 
to the chairmanship of this subcommittee.
    I am representing NEMA, whose members are the directors for 
emergency management in states, territories and the District of 
Columbia. NEMA members are responsible to their governors for 
emergency preparedness, response and recovery activities for 
all disasters. Clear incident command structures, coordinated 
response and working communications systems are the essential 
elements for maintaining control of any disaster, regardless of 
the costs.
    When there is a question over communications, state 
emergency management directors find that technology is often 
not the problem. Often the real issue is people not 
communicating before the disasters. Commonly, if people are not 
talking before the disaster, then they are rarely establishing 
communications during a disaster, which causes response 
coordination breakdowns.
    Incident command does not solve the coordination and 
communications problems, but it does bring accountability, 
common goals and an organizational structure to disaster 
command and control. The common framework from which everyone 
is working provides goals that people in all disciplines and 
all levels of government can focus activity on.
    The recent disasters on the Gulf Coast have shown the 
challenge of command and control when the entire emergency 
services sector is wiped out by a disaster and communication 
links are destroyed. Exercise training and communications 
before an event in the planning process are critical and 
command and control systems allow for a common framework to 
start with, regardless of whether communications systems are 
working or not.
    Incident Command System, ICS, is a process. It is not a 
strategy or a tactics, but focuses on goals and objectives to 
the incident action plan. In 1989, we in Alaska successfully 
used ICS in response to the Exxon Valdez oil spill, which led 
to the Coast Guard's adoption of the system. Alaska utilizes 
incident command on the ground, executing the missions of the 
state.
    We typically deploy teams prior to a disaster in 
anticipation of the state's mission to support local 
government. Alaska's Type-1 team, incident management team, was 
deployed to work post-9/11 in New York, last year's hurricane 
response in Alabama, and just completed an assignment to the 
Gulf Coast post-Katrina.
    My colleague Craig Fugate in the state of Florida utilizes 
ICS's unified command to establish the state's goals in a 
disaster. In last year's Hurricane Charlie, Florida dispatched 
incident management teams equipped with satellite 
communications to Charlotte County prior to the disaster. 
Immediately, the state was able to support the county 
infrastructure and response needs with the ability to pull 
resources from other places in the state. The state moved 
forward with a joint command presence between a state 
coordinating officer and the federal coordinating officer with 
a single mission. The unified command approach was used again 
in 2005.
    NEMA has been on record since 1996 advocating adoption of 
ICS by all levels of government. The beauty of ICS is that it 
is an all-hazard system that can be used for all incidents 
regardless of the size. NEMA was active on the team that 
developed later drafts of the national response plan and NIMS. 
Currently, states are in the process of adopting NIMS to meet 
the requirements of Congress to qualify for future funding.
    During the consideration of NIMS, NEMA called for 
significant training and financial support. Both DHS and 
Congress told states and localities to comply, but did not 
provide a viable source of funding to train and exercise for 
the new system. The mutual aid assistance provided during the 
hurricanes vividly exposes the interdependencies of the 
nation's emergency management system. For Hurricane Katrina, 
the emergency management assistance compact, EMAC, has 
currently fulfilled over 1,200 missions with more than 44 
states providing assistance in the form of over 45,000 civilian 
and military personnel and equipment assets to impacted states.
    EMAC has its own command and control system operating at 
the request of the governor of impacted states. The EMAC system 
is built on state's requesting aid from other states with 
advance teams working in a state emergency management office to 
ensure that the aid is being rendered. Advance EMAC personnel 
were on the ground in Baton Rouge and Jackson prior to 
Hurricane Katrina's landfall. The EMAC system enables difficult 
issues such as liability, reimbursement, workers compensation 
and acceptance of state licenses to be addressed ahead of time, 
allowing personnel and resources from all disciplines to be 
utilized through EMAC's clear operating procedures.
    The National Guard has been deployed through EMAC despite 
being under Title 32. They like the structure and 
accountability provided through the compact's command and 
control structure.
    We cannot afford to ignore the lessons learned from 
Hurricane Katrina and Rita at the operational level. In the 
aftermath of these catastrophic disasters, there are a few 
areas that can be immediately identified for increased focus: 
state and local coordination in the development of federally 
defined preparedness capabilities; improved baseline funding 
for emergency management capacity building in the nation's 
mutual aid system; and federal, state and local updates are 
needed for COOP and COG planning.
    In conclusion, NIMS and the incident command systems are 
vital to the success of emergency response in a disaster. The 
system must be built on communication before a disaster, 
including preparedness activities such as exercise and 
training.
    I thank you for the opportunity to testify on behalf of 
NEMA and appreciate your partnership.
    [The statement of Mr. Liebersbach follows:]

               Prepared Statement of David E. Liebersbach

Introduction
    Thank you Chairman Reichert, Ranking Member Pascrell, and 
distinguished members of the Committee for allowing me the opportunity 
to provide you with a statement for the record on the nation's 
preparedness oversight system. I am Dave Liebersbach, Immediate Past-
President of the National Emergency Management Association and Director 
of the Alaska Division of Homeland Security and Emergency Management. 
In my statement, I am representing the National Emergency Management 
Association (NEMA), whose members are the state directors of emergency 
management in the states, territories, and the District of Columbia. 
NEMA's members are responsible to their governors for emergency 
preparedness, mitigation, response, and recovery activities for 
natural, man-made, and terrorist caused disasters.

Incident Command in Emergency Management
    Clear incident command structures, coordinated response, and 
working communications systems are the essential elements for 
maintaining control of any disaster, regardless of the cause. The onset 
of each disaster raises the question over communications. Seasoned 
state emergency management directors find that typically technology is 
not the problem. The problem lies with people not communicating before 
the disasters. Commonly, if people are not talking before the disaster, 
then they are rarely establishing relationships and communication 
during a disaster, which causes functional coordination break downs.
    Incident command does not solve the coordination and communication 
problems, but it does bring accountability, common goals, and an 
organizational structure to disaster command and control. The common 
framework from which everyone is working sets forth goals that people 
at all levels of government and all disciplines are supporting from the 
top of the organization chart to the bottom. The method of 
communication is irrelevant, but the emergency response system needs 
the common framework from which to operate.
    The recent disasters in the Gulf Coast have shown the challenges of 
command and control when the entire emergency services sector is wiped 
out by a disaster and communication links are also destroyed. While 
systems and plans are in place, command and control is extremely 
difficult when there is no way to communicate to the players in the 
system at all levels of government. Exercise, training and 
communication before an event in the planning process are critical, but 
command and control systems allow for a common framework to start with 
regardless of whether communications systems are working or not. 
Incident Command Systems (ICS) is a process, it is not strategy or 
tactics, but focuses on goals and objectives through the incident 
action plan.
    In 1989, Alaska used incident command in response to the Exxon 
Valdez oil spill. The success of ICS in that event led to the Coast 
Guard picking up the system and inserting it into their operations. 
Alaska has utilized incident command on the ground executing the 
mission of the State, and we typically deploy teams prior to a disaster 
to support the state's mission to support the local government. The 
terrain and temperatures in Alaska can make communications difficult in 
a disaster, so I may send an incident command team to Nome or Bethel, 
Alaska to be ready with response and recovery functions if an event is 
predictable. In most cases, I try to proactively offer resources to 
local governments prior to an event. Sometimes the locals turn the 
support down or don't agree, but the offer eliminates confusion later. 
In Alaska, the state Constitution does not allow for the state to 
takeover, so it is imperative that the state continues in a support 
role to the local governments.
    My colleague Craig Fugate in the State of Florida utilizes unified 
command, which is a hybrid of NIMS, to establish the State's goals in a 
disaster. In last year's Hurricane Charlie, Florida dispatched Incident 
Management Teams equipped with satellite communications to Charlotte 
County prior to the disaster. Immediately, the State was able to 
support the county infrastructure and response needs and they plugged 
right into the system with the ability to pull resources from other 
places in the State. Further, the State moved forward with a joint 
command presence between the State Coordinating Officer and the Federal 
Coordinating Officer with single mission. Florida found that the merged 
staffs under the unified command were able to move forward with joint 
missions, action plans and objectives where everyone understood the 
mission and each person's role in achieving the mission. With over 40 
counties impacted, it was difficult to appoint a local to unified 
command in Florida, but the State did include liaisons in heavily 
impacted areas in the structure.
    The unified command approach was used again in 2005 for Florida to 
address Hurricanes Dennis, Katrina and Rita. Alaska's Type I Incident 
Management Team was deployed to work post 9/11 in New York, in last 
year's hurricane response in Alabama, and just completed an assignment 
in the Gulf Coast post-Katrina.

Move to a National Incident Management System
    Incident command structures prior to 9/11 were varied by state and 
local government plans as well as by discipline. Emergency management 
was comfortable with the Incident Command System (ICS) and most state 
emergency management agencies were utilizing some form of system in the 
1990s. The system is nimble enough to be used for a variety of 
disasters and events.
    The 9/11 Commission highlighted the lack of coordination of command 
and control in their Report by calling for all emergency response 
agencies to adopt the Incident Command System (ICS) and structures for 
unified command. The report also called for Congress to make homeland 
security funding contingent on the adoption and regular use of ICS and 
unified command. Further, the report states that ``DHS should consider 
making funding contingent on aggressive and realistic training in 
accordance with ICS and unified command structures.'' In response, the 
President offered Homeland Security Presidential Directive 5 on 
Management of Domestic Incidents. Shortly after, the Office of Homeland 
Security and then DHS began crafting the National Incident Management 
System (NIMS) with state and local governments.
    NEMA has been on the record since 1996 advocating adoption of ICS 
by all levels of government. The beauty of ICS is that it is an all-
hazards system that can be used for all incidents, regardless of the 
cause or size. NEMA was active in commenting on and participating in 
the writing team that developed later drafts of the National Response 
Plan and the NIMS. At the time of consideration of the system, NEMA 
recommended that flexibility be given for DHS to recognize pre-existing 
systems that meet the NIMS general criteria and standards. Currently, 
states are in the process of adopting NIMS to meet the requirements of 
Congress and the Administration to qualify for funding for FY 2006 and 
beyond.
    During the consideration of the new NIMS, NEMA called for 
significant training and financial support for the training and 
certification necessary for states and localities to successfully adopt 
and implement the new NIMS. However, both DHS and the Congress told 
states and localities to comply, but did not point to a source of 
funding to train and exercise for the new system that was all-hazards 
based. DHS pointed to the state homeland security grants as a source of 
funding, but most emergency managers found that they were not able to 
utilize that funding specifically for NIMS. Many state and local 
governments have had to come up with funding themselves in an already 
tight fiscal environment to implement the mandate themselves as they 
formally adopt and comply with the NIMS.
    NEMA did take the initiative to creatively work to introduce the 
concepts to state government officials through an interagency multi-
discipline approach. NEMA, along with the Centers for Disease Control 
(CDC) hosted a series of training sessions in summer 2004 based on 
utilizing NIMs for bioterrorism events and also allowed for state and 
local participants to immediately exercise what they had learned during 
the training. Six states completed the training in 2004 and the CDC has 
provided additional funds for an additional five training sessions to 
be completed in the next twelve months. After the 2004 trainings, NEMA 
made all of the materials for the training and the exercise available 
to all states and localities that were interested. NEMA will begin 
updating the course and addressing needs for the additional training in 
the coming months.

EMAC
    The mutual aid assistance provided during these hurricanes vividly 
exposes the interdependencies of the nation's emergency management 
system. For Hurricane Katrina, the Emergency Management Assistance 
Compact (EMAC) has currently fulfilled over 1200 missions with 44 
states, the District of Columbia and Puerto Rico providing assistance 
in the form of more than 45,000 civilian and military personnel and 
equipment assets to support the impacted states. The missions and 
request for aid continue and are expected to continue for the next 
several months.
    EMAC has its own command and control system operating at the 
request of the Governor of an impacted state. The EMAC system is built 
on states requesting aid from other states with EMAC advance teams 
(called A-teams) working in the state emergency management offices to 
ensure that aid is being rendered for each request. In recent 
disasters, EMAC personnel have been deployed to FEMA's National 
Emergency Operations Center as the National Coordinating Team. Advance 
EMAC personnel were on the ground in Baton Rogue, LA and Jackson, MS 
prior to Hurricane Katrina to field the states' requests for 
assistance. The National Coordinating group works to coordinate the 
staffing of the A-Teams on the group. The EMAC system enables difficult 
issues such as liability, reimbursement, workers' compensation, and 
acceptance of states licenses to be addressed ahead of time, allowing 
personnel and resources from all disciplines to be utilized through 
EMAC's clear operating procedures. The National Guard status has been 
deployed through EMAC, despite being in Title 32 status because they 
like the structure and accountability provided through the compact's 
command and control structure.

Improving Command and Control
    We cannot afford ignore the lessons learned from Hurricane Katrina 
and Rita at the operational level. NEMA will look closely at the state-
to-state mutual aid system in an after-action in the coming months once 
operational activity wanes. In the aftermath of catastrophic disasters 
and since the influx of homeland security funding, a few areas need 
increased focus that can be immediately identified.
    To start, the federal government must work closely with state and 
local governments to define capabilities and competencies needed for 
ALL disasters, regardless of the cause. The system must utilize the 
Emergency Management Accreditation Program (EMAP) as the measuring 
stick, since that is the accepted peer review system and practice for 
addressing standards for emergency management agencies. More focus on 
natural disasters as catastrophic events must be implemented in the 
Administration's activities in the implementation of Homeland Security 
Presidential Directive 8 on National Preparedness.
    HSPD 8 states that, ``to the extent permitted by law, federal 
preparedness assistance will be predicated on the adoption of statewide 
comprehensive all-hazards preparedness strategies.'' Yet, the national 
planning scenarios include only three scenarios of the fifteen are not 
terrorist attacks. The directive calls for ``threats and hazards that 
present the greatest risk''. NEMA has long maintained that changing the 
focus of preparedness to weigh so heavily on terrorism could severely 
hamper the ability of state and local government capabilities to 
respond to a wide range of events with a higher likelihood of 
occurrence such as natural disasters, non-traditional disasters like 
the Columbia Space Shuttle explosion, Mad Cow disease, West Nile virus, 
civil unrest, and hazardous material incidents. Increased homeland 
security focus must be viewed as an enhancement to our basic emergency 
management capacity. Our system for public safety and homeland security 
must be mutually supportive and nimble enough to address any hazard.
    NEMA strongly supports maintaining baseline funding for emergency 
management capacity building to ensure national preparedness against 
all hazards and maintenance of the nation's mutual aid system. The 
current need for mutual aid support in response to Hurricane Katrina 
vividly shows the need for all states to have appropriate capabilities 
to respond to disasters of all types and sizes. Additionally, resources 
are needed to build emergency response capabilities on a national basis 
and to ensure the system can handle the demand of natural disasters and 
other emergencies no matter where they occur. EMPG is the only means to 
support this assistance that can be offered by other states in the face 
of disaster through adequate preparedness. EMPG ensures all states have 
funding to develop and maintain a base level capacity that can be 
utilized by other states for mutual aid. Currently, there is a $264 
million shortfall to the EMPG program that must be addressed in the 
context that these recent disasters show in terms of the need for 
personnel and planning in every state and locality.
    Additionally, two long standing issues must be addressed:
        1. State and local updates of Continuity of Operations Planning 
        and Continuity of Government Planning (COOP/COG) are needed 
        along with federal financial assistance to support the effort; 
        and,
        2. Funding to improve and retrofit Emergency Operation Centers 
        and funding for alternate EOC locations to provide for unified 
        command;
    Both of these points were also noted post-9/11 and were delivered 
to Congress and the Administration in the White Paper on Domestic 
Preparedness that was approved by NEMA, the Adjutants General 
Association of the U.S., the International Association of Emergency 
Managers, the National Guard Association of the U.S., and the Council 
of State Governments.
    NEMA also recommends that state and local governments remain in 
control of their own disasters with federal support and unified command 
structures. Even in extreme circumstances, we need to continue to use 
and follow the plans and systems that are in place to address all 
disasters. State and local governments must have buy-in for the 
response and recovery of their communities. Federalizing a disaster 
could be extremely difficult with so many federal agencies lending 
support to a disaster. No disaster has been federalized in the past 30 
years. Hurricane Camille in 1969 was the last time emergency management 
can recall a declaration of martial law with the military placed in 
charge. We cannot afford to return to the Civil Defense era of the 
1950s and avoid all the lessons we have learned with catastrophic 
disasters over the last 30 years. The time to stop the cycle of 
degradation of emergency management functions by reorganization after 
reorganization is now and we must systematically improve our nation's 
emergency response system through verified lessons learned and not 
reactionary decisions. We hope that Congress will partner with NEMA as 
they move forward to consider changes to DHS organizational functions 
and the role of the Federal Emergency Management Agency (FEMA).

CONCLUSION
    NIMs and other incident command systems are vital to the success of 
emergency management and other emergency response providers in a 
disaster, provided that the system is built on communication before a 
disaster. State and local governments must have adequate funding for 
baseline emergency preparedness for emergency management so exercises 
and training can ensure that plans and systems are effective before a 
disaster. I thank you for the opportunity to testify on behalf of NEMA 
and appreciate your partnership. I hope we can work together to 
implement the lessons of Hurricane Katrina and Rita and ensure that the 
nation is adequately prepared for any disaster, regardless of cause.


    Mr. Reichert. Thank you, Mr. Liebersbach.
    The chair now recognizes Dr. Gebhart, assistant professor 
of emergency medicine at Boonshoft School of Medicine at Wright 
State University.

                   STATEMENT OF MARK GEBHART

    Dr. Gebhart. Chairman Reichert and Ranking Member Pascrell 
and members of the committee, good afternoon. My name is Dr. 
Mark Gebhart, and I currently serve as assistant professor of 
emergency medicine and director of the Homeland Emergency 
Learning and Preparedness Center at Wright State University, 
Boonshoft School of Medicine, in Dayton, Ohio.
    I am honored to represent the profession of medicine, the 
specialty of emergency medicine, and fire and emergency 
services. I hold board certification through the American Board 
of Emergency Medicine and the rank of deputy fire chief and 
chief medical officer for the City of Kettering Fire 
Department.
    I also serve as task force manager, Ohio Task Force One, 
Urban Search and Rescue. I responded with Ohio Task Force One 
to Gulfport, Mississippi, on August 28 of this year and spent 8 
days searching the communities of Gulfport, Pass Christian and 
Long Beach, Mississippi.
    The specialty of emergency medicine is one of the youngest 
recognized specialties in medicine. Over 140 training programs 
exist in the United States training your nation's emergency 
medicine specialists. These graduates fulfill a vitally 
important role in our country, that of our nation's safety net. 
The nation's emergency departments are open 24 hours a day, 7 
days a week, 365 days a year, and in addition are required to 
work during times of catastrophic disaster.
    No specialty in medicine is better prepared to assume the 
role of disaster responder than my colleagues in emergency 
medicine. Hospitals across our nation have begun teaching 
hospital emergency incident command, adapted from incident 
management utilized in public safety response plans. The 
implementation of these programs has met with modest success. 
Many emergency physicians, however, serve local fire and police 
departments in roles including medical director, tactical 
physician, or in my case, as a member of an urban search and 
rescue team.
    As a result of this form of participation, many emergency 
physicians have first-hand knowledge of incident management and 
function seamlessly in incident management systems, and have 
become compliant with presidential directives regarding the 
National Incident Management System. I attribute my NIMS 
compliance directly to participation as a fire officer and 
member of an urban search and rescue team.
    The material contained within NIMS educational initiatives 
was tested during the response to Hurricane Katrina. My eyes 
could not have been prepared for the devastation and 
destruction I observed as our task force moved into Gulfport, 
Mississippi. Lives lost, homes destroyed, families forever gone 
are vivid, real and memorable experiences I will have for the 
rest of my life.
    Operating within the structure of NIMS, our task force, 
other task forces, member physicians and other response teams 
including North Carolina's Disaster Medical Team One and 
Alabama Task Force One, a state asset of the State of Alabama, 
were able to operate from a common point of reference. Skilled 
incident support teams from the Federal Emergency Management 
Agency supported us and provided leadership. These incident 
support teams consisted of numerous professionals, primarily 
from the fire and rescue services. They identified problems, 
solutions were sought, and specific changes in operations were 
handled.
    It must be mentioned that the common understanding of 
incident management facilitated this management structure. This 
serves as an example of the requirement for all specialties in 
medicine, first responders, and others to become aware of 
incident management and for selected disciplines to become 
completely NIMS-compliant.
    Medical operations during the Hurricane Katrina disaster 
clearly identified the need for medical professionals to assume 
an important role in incident management. The acute care and 
delivery of trauma and medical care during disasters is a 
continuum of care. This care may begin in the field or it may 
begin at a hospital, where many self-transport and report 
during emergencies. Incident management structures must have 
physicians as members of their organizational structure. This 
will allow decisions to be made and input to be given.
    A clear distinction must be made between clinical medicine 
and public health. Clinical medicine specializes in providing 
patients with medical are and public health does not. As the 
definition of ``first responders'' continues to evolve, those 
who practice the art of patient care, those who specialize in 
treating people at the bedside, those who work in our nation's 
emergency departments and trauma centers, simply must be 
included and should be clearly differentiated from the field of 
public health. My written comments reflect much more detailed 
information.
    In conclusion, the nation is preparing to be prepared. 
Emergency medicine and physicians in other specialties now 
categorized as part of our nation's first responders, are 
beginning to awaken and realize the need to embrace the tenets 
of the president's plan for a National Incident Management 
System.
    We have a long way to go. As a physician with Ohio Task 
Force One, I watched as physicians in Gulfport, Mississippi, 
wondered how we do what we do, how we understand roles, 
responsibilities and clearly work as a team to solve a given 
situation. In order for the nation's physicians to become 
integrated into incident management, areas for improvement and 
advancement require identification.
    Camille was an 82-year-old resident of the state of 
Mississippi. Her home was destroyed. We found her floating in 
putrid water. She had sustained scrapes and abrasions to her 
body and wanted to get back to her house for a bridge game. She 
was expertly rescued from her home by an elite group of our 
nation's first responders, my colleagues from Ohio Task Force 
One, all who are NIMS-compliant. Her care was transferred to an 
outstanding medical specialist, again from Ohio Task Force One, 
who was NIMS-compliant. Her care was then transferred to me, 
her doctor, the only doctor in Pass Christian who was NIMS-
compliant.
    The communities surrounding Gulfport were seriously 
impacted. I vividly recall arriving at the Harrison County 
Emergency Operations Center seeing people from the fire 
profession, law enforcement and other first responders 
beginning to manage the incident. Our team was given a mission. 
We executed that mission. Incident management was tested, and 
in my small piece of this hurricane response, NIMS was 
successful.
    Thank you. I am honored to be here today.
    [The statement of Dr. Gebhart follows:]

               Prepared Statement of Mark E. Gebhart, MD

    Chairman King and Members of the Committee, good afternoon. My name 
is Dr. Mark Gebhart and I currently serve as assistant professor of 
emergency medicine and director of the Homeland Emergency Learning and 
Preparedness Center at Wright State University--Boonshoft School of 
Medicine in Dayton, Ohio. I am honored to represent the profession of 
medicine, the specialty of emergency medicine, the profession of 
firefighting and our nations urban search and rescue community. I hold 
board certification through the American Board of Medical Specialists 
in emergency medicine. I hold the rank of deputy fire chief and chief 
medical officer for the City of Kettering Fire Department and I serve 
as task force medical manager, Ohio Task Force One, Urban Search and 
Rescue. I responded with Ohio Task Force One to Gulfport, Mississippi 
on August 28th of this year and spent eight days searching the 
communities of Gulfport, Pass Christian, and Long Beach, Mississippi.

Background on Emergency Medicine and Incident Management
    The specialty of emergency medicine is one of the youngest 
recognized specialties in medicine. Over one hundred and forty training 
programs exist in the United States, training the nation's specialists 
in emergency care. These graduates fulfill a vitally important role in 
our country, that of our nation's safety net. The nations emergency 
departments are open twenty-four hours a day, three hundred and sixty 
five days per year. The nations emergency departments are also required 
to operate in times of catastrophic disaster. No specialty in medicine 
is better prepared to assume the role of disaster responder than my 
colleagues in emergency medicine.
    Hospitals across our nation have begun teaching the hospital 
emergency incident command system--adapted from incident management 
utilized in public safety response plans. The implementation of these 
programs has been met with modest success. Many emergency physicians 
serve local fire and police departments in roles including medical 
director, tactical physician, or in cases such as my own, as a member 
of an urban search and rescue team. As a result of this participation, 
many emergency physicians have first hand knowledge of incident 
management, function seamlessly in incident management systems, and 
have become compliant with presidential directives regarding the 
national Incident Management System (NIMS). I attribute my NIMS 
compliance directly to participation as a fire officer and as a member 
of an urban search and rescue team.
    The material contained within the NIMS educational initiatives was 
tested during the response to hurricane Katrina. My eyes could not have 
been prepared for the devastation and destruction I observed as our 
task force moved into Gulfport, Mississippi. Lives lost, homes 
destroyed, families forever gone were vivid, real, and memorable 
experiences I will have for the rest of my life. Operating within the 
structure of NIMS, our task force, other task forces, and other 
response teams such as North Carolina's Disaster Medical Assistance 
Team NC-1 and Alabama Task Force One (a state urban search and rescue 
team) were able to operate from a common point of reference. Skilled 
incident support teams provided leadership. These incident support 
teams consisted of numerous professionals and included physicians 
specializing in emergency medicine. Problems were identified, solutions 
were sought, and specific changes in operations, planning, and 
logistics resulted from interaction between professionals. It must be 
mentioned that the common understanding of incident management 
facilitated this management structure. This serves as an example of the 
requirement for all specialties in medicine to become aware of incident 
management and for selected disciplines to become completely NIMS 
compliant.

The Role of Emergency Medicine in Educational Initiatives
    The nation has responded in the post 9-1-1 era with many 
educational initiatives. An outstanding example of the role played by 
the specialty of emergency medicine is a strong and healthy 
relationship between the Ohio Chapter of the American College of 
Emergency Physicians and the Homeland Emergency Learning and 
Preparedness Center at Wright State University. These entities 
collaborated two years ago to deliver courses from the National 
Disaster Life Support Foundation. Course work was funded by the Ohio 
Department of Health and delivered by Ohio's emergency physicians. 
These educational initiatives included basic principles of incident 
management, response to catastrophic natural and man made disasters. 
Ohio continues to have a strong role in educating responders at all 
levels and has trained in excess of 2000 responders in three states.
    National efforts through the American College of Emergency 
Physicians are a broader and more distributed network of educational 
initiatives seen by many in the specialty as the gold standard. 
Currently, relationships are evolving to strengthen the role of the 
college in disaster preparedness and education. The college is 
committed to the nations first responders and its members.
    The specialty of emergency medicine has stood hand in hand with the 
nations emergency medical technicians and paramedics. Emergency 
medicine specialists are the recognized leaders in providing oversight 
and medical direction to the nations first medical responders. As such, 
emergency physicians are tasked with prescribing the programs of study, 
continuing education delivery, and ongoing quality assurance 
monitoring. Numerous emergency physicians have prescribed and delivered 
incident management training to emergency medical technicians.

Areas for Improvement
    Mr. Chairman, the nation is preparing to be prepared. Emergency 
medicine, physicians in other specialties--now categorized as first 
responders are beginning to awaken and realize the need to embrace the 
tenant's of President Bush's plans for a national incident management 
system. We have a long way to go. As a physician with Ohio Task Force 
One, I watched as physicians in Gulfport wondered how we do what we do. 
How we understand roles, responsibilities, and clearly work as a team 
to solve a given situation.
    The nation's fire and rescue services, emergency medical services, 
and recently public health practitioners have embraced incident 
management in many of the nation's larger and more financially stable 
communities. Much of the nation's rural and frontier communities, 
served by volunteers have not. In these same rural and frontier 
communities, medicine parallels the public safety-first responders in 
its need for educational initiatives. The United States House of 
Representatives has developed legislation for a Rural Domestic 
Preparedness Consortium. To date, no progress has been made on 
identification of members, development of training programs, and most 
importantly, little has been done to empower these first responders.
    Higher education in our nation must embrace the role of provider of 
educational initiatives related to incident management. These 
institutions should be allowed to acquire the resources necessary to 
form collaborative relationships across the nation with fire and police 
departments, professional associations such as the international 
association of fire chiefs, governmental bodies, and the private 
sector.
    The nations colleges and universities could fulfill a vitally 
important role in preparing all aspects of our nation utilizing an all-
hazards approach to disaster management, response and recovery.

G4Awareness/Education Campaigns
    The Department of Homeland Security has developed and fielded 
educational initiatives directed at providing the nation's first 
responders with a high quality educational experience. In addressing 
the nation's medical compliance with incident management, we simply 
must more openly make physicians aware of this material. Plans should 
be made to encourage boards of medicine in each state to explore 
specific requirements for physicians--now members of our nations first 
response corps. Without this organizational oversight, the vast 
majority of our nation's physicians will likely not even be aware of 
these educational opportunities.

Conclusion
    Camille was an eighty-two year old resident of the State of 
Mississippi. Her home was destroyed, she was found floating in putrid 
water, had sustained scrapes and abrasions to her body, and wanted to 
get back to her house as soon as possible to meet her friends for a 
bridge game. She was expertly rescued from her home by an elite group 
of our nations first responders--my colleagues from Ohio Task Force 
One. All who were NIMS compliant. Her care was transferred to an 
outstanding medical specialist--again from Ohio Task Force One who was 
NIMS compliant. He care was then transferred to me, her doctor, the 
only doctor in Pass Christian--who is NIMS compliant.
    Camille was not seriously injured and during these initial stages 
of the response, vital local ambulance resources could not be utilized 
to transport her. Camille spent nearly a day with the task force. 
Camille suffered from dementia--likely Alzheimer's. She required 
constant attention, assistance with all activities of daily living, and 
was eventually transported by a citizen, and American willing to help 
another in this horrific time.
    The success of this task force stems from the personal commitment 
of its members. The success of teams like North Carolina and the many 
other disaster response teams share this same level of commitment. Our 
nations newest members to the first responder ranks--physicians, 
nurses, and other health care providers will share in this same 
commitment and I encourage you, the elected leadership of this great 
nation to make all necessary provisions needed to enhance delivery of 
incident management education, to enhance communications for public 
safety forces, and to enforce legislation relating to compliance with 
the National Incident Management System.

    Mr. Reichert. Thank you, Dr. Gebhart.
    I am not surprised by the information that has been shared 
today, as we have talked about this upcoming hearing and things 
that have happened in the past few weeks across our country. 
The three things that kept coming up are planning, joint 
training and communication. Those are three things that all of 
you clearly touched upon.
    You also mentioned that ICS is not a new concept. It has 
been around for a while. I think it may have developed back in 
the early 1970s when California wild fires took over the state.
    Actually, I have to be honest with you here. As a police 
officer for 30-some years, it is hard for me to admit this, but 
the firefighters of this country have been far ahead of all of 
us in the area of incident command. So I have to congratulate 
the fire chiefs and firefighters across the nation. They have 
put together an organization that needs to be modeled across 
our country.
    I have a lot of personal experience in this area. One of 
the areas where really we saw the need for incident command, 
and maybe many of you might be familiar with WTO in Seattle, 
and the difficulty we had in communicating with 20-some police 
departments and firefighting agencies that came into the city 
to help us with that. It is certainly not on the magnitude of 
Katrina or Rita, but it was an event that was fairly 
catastrophic to the city of Seattle and the county that I was 
sheriff of.
    As you are involved in one of those incidents, disasters 
and tragedies, after you have finished your job in your 
specific discipline, there is always an opportunity to stop and 
pause and go back and take a look at what you did right and 
what you did wrong. We did that during WTO and other incidents 
that I have been involved in.
    We are still evaluating Katrina and our response, but we 
see some mistakes that have been made there, and many of you 
have mentioned those today. Based on your personal experiences 
and some of the information you are getting back from members 
of your associations, can you describe some of the difficulties 
that have been shared with you in Louisiana, Mississippi, 
Alabama, Texas in setting up their incident command?
    That is a question for anyone on the board. Yes?
    Mr. Canterbury. Mr. Chairman, I think one of the things 
that many of our members found was that because of the national 
media, most of the response originally in the New Orleans area 
went to New Orleans proper. St. Tammany, St. Bernard's Parish, 
St. Charles Parish needed assistance and had a lot of trouble 
getting help. I know that there were a lot of complaints about 
self-dispatching from especially law enforcement agencies that 
responded to assist.
    But being a former sheriff, you will understand when the 
sheriff of St. Charles Parish, 3 days after the incident, 
finally was able to reach me by phone and ask me for some help, 
we sent help. They were stopped by officials saying if you do 
not have your EMAC number, go home. They went anyway because 
the sheriff requested it. He is the chief constitutional 
officer of that county. They responded. We sent our own mobile 
kitchen to feed them. We are not asking for reimbursement. We 
went to assist fellow law enforcement professionals.
    I believe that that was one of the major problems, besides 
the communication. The first call that I got from that region 
turned out to be on a Nextel cell phone. Nothing else worked. 
That was only after their backup satellite systems arrived. And 
St. Charles was on the good side of the storm, and their 
communication was down for at least 3 days. So that was one of 
the problems that we had. We understand that the EMAC system 
was being preapproved, but the bottom line is that they needed 
help and were not getting it.
    Mr. Reichert. Thank you.
    Anyone else care to answer?
    Chief Killen. Mr. Chairman, one of the success stories to 
come out of this was the fact that experiences learned in 
hurricanes in Florida, that the Florida fire chiefs were able 
through their system to stage massive units and resources. I 
think there were six task forces that were staged east of the 
storm area and were able to get into Mississippi and provide 
some communications because they had learned and built systems 
that would work in that environment.
    Communications were extremely horrible, whether it was 
communications by landline, cell phone or whatever. I know from 
personal experiences trying to reach family members to see how 
they were. It was really a sad state of affairs. And the 
getting calls for assistance and writing the information down 
on a 3-by-5 card and handing it to somebody in the fire 
department so he or she could run outside and hand it to a 
company officer so they could dispatch, that is how 
communications was being handled in New Orleans because of the 
impact of the flooding of the system.
    Mr. Freudenthal. Mr. Chairman, one of the key things to 
have in any kind of response like this is experience. 
Unfortunately, the only way to get it is live through a painful 
process. I think everybody at this table can attest to that, 
and this is certainly probably the most painful process we are 
going to go through as far as learning from this experience.
    But it is an opportunity, an opportunity to improve the 
quality of life for everybody in that area, hopefully in this 
country, and an opportunity to improve our system. Like 
everyone at this table, general communications were nonexistent 
for the most part. We did work through the EMAC system. It 
certainly has some areas that need focus and improvement, but 
it was the system to use. With experience, we will improve 
those as well.
    One of the tough things are those immediate decisions that 
need to be made. For example, how to re-route the ambulance 
service to respond when there is no bridge to go across the 
water. So those types of thing we need to focus on how to do a 
better control, command and communication decision-making 
process, allowing those immediate decisions to be made, and 
deal with the response at hand.
    Mr. Reichert. Okay.
    Yes, sir?
    Mr. Garner. Mr. Chairman, I think that one interesting 
thing about this disaster is the fact that as we have done in 
the last few years preparing for the WMD consideration, is that 
we saw a lot of what we may see in that type of disaster in the 
future. Any incident command system is as strong as the core 
incident command structure. The best people to lead that 
structure are the ones that are in the local area.
    I think what we saw here was the virtual destruction of 
what the local command system would typically do to lead those 
that come to assist. Therein, just as has been described here, 
there were calls made on an ad hoc basis requesting assistance, 
and it was very difficult to get direction from a central 
command structure.
    So I think what we saw here was something that we need to 
learn from, and that is that when that central structure is 
destroyed, then there needs to be an immediate ability to back 
that up with something which the national structure would do. 
So I think that that is one of the lessons learned from this 
experience.
    Mr. Reichert. Thank you.
    If I could just follow up very quickly with Chief Killen, 
you mentioned that two of your colleagues noted that there was 
an utter lack of structure. Could you just elaborate on that 
just a little bit more, to follow up with Mr. Garner's 
comments?
    Chief Killen. Mr. Chairman, one of the difficulties in our 
government system is that state levels, in many cases--and I 
will quote an example. There are a number of states that the 
insurance commissioner is dual-headed as the state fire 
marshall. For several days, there was no fire presence in the 
state EOC because the insurance commissioner was, by training, 
an engineer, and there was no fire experience at that level of 
the state EOC.
    Also, there was a lot of confusion in trying to identify 
command and people with the right organizations, for example, 
in the New Orleans command post as well. No structure and no 
one to identify was very difficult to really find out who was 
in charge and who was making the decisions.
    Mr. Reichert. Thank you.
    The chair recognizes Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Reiterating again, the men and women who are there every 
day, day-in and day-out, are a critical part of this. Dave 
Paulison has taken over at FEMA. He obviously had the 
experience, and also is probably the first person that I know 
of in Homeland Security from the fire side that is involved in 
upper management.
    Fire services have been left out, which is nothing new. In 
many of the state apparatus', the same situation. I have been a 
strong advocate of both the police and the fire and paramedics. 
You have been the forgotten part of the public safety equation, 
both at the state and national level.
    I want to ask you a question, Chief Killen, to start this 
afternoon. My question is this--and if anybody else wants to 
jump in, make your responses brief and I will try to make my 
questions brief.
    Much has been said and written about the president's 
potential idea to give the military the main authority for 
response during a disaster within our borders. What is your 
initial feeling toward this, and how do you view it impacting 
first responders?
    I will start off with an easy question.
    Chief Killen. Congressman Pascrell, I have spent 30 years 
employed by the Department of Defense, and I am very proud of 
that--and the Fire Emergency Services. But the first responders 
are the people that we need to have in there. I am very proud 
of the Department of Defense, but it takes time to mobilize and 
dispatch the Department of Defense.
    Emergencies are like politics. They are all local. The 
local responders are there first and it takes 12 to 24 hours to 
get the first Department of Defense units moving unless they 
are already stationed there.
    I do not think that it is good idea and the International 
Association of Fire Chiefs is not very much in favor of that, 
but we will work with our government, our president and our 
Congress to do what is right for our country.
    Mr. Pascrell. Let me ask you this, Chief, as a follow up. 
FEMA's job is primarily to coordinate.
    Chief Killen. Yes, sir.
    Mr. Pascrell. You do not have to have the disaster happen 
before you start to coordinate. I spend a lot of debate and 
discussion about who pushed who and who sent letters.
    Looking back over this experience--and this is not an easy 
question to answer. We are not here to criticize. We are here 
to make it better. Do you think the coordination, do you think 
that we got that kind of coordination from FEMA?
    Chief Killen. I think the coordination would have been a 
lot better if there had been more people with operational 
experience in emergency response in positions. The eight top 
positions in FEMA, two of them had fire and emergency services-
skilled persons in them, and they were not utilized early-on. I 
think that made a difference.
    Mr. Pascrell. Okay.
    To anyone in the committee, I want to ask this question. We 
have what I consider to be--and correct me if I am wrong--a 
major problem, both fire and police, in terms of common 
elements of training. I want to ask a question to anybody who 
wants to answer this.
    Do you think that the federal government--is this what you 
are hinting at today or outright saying, that the federal 
government should take over all emergency training that now is 
afforded through the states? What are your feelings about that?
    Who wants to respond? Because we are going to have a 
hearing I think next month on training. I hope you are all 
involved in some manner, shape or form. We want to learn.
    Yes? Mr. Garner?
    Mr. Garner. Yes, Ranking Member Pascrell, I would say this, 
that we think that there needs to be a coordinated effort in 
terms of training so that there is consistency.
    In a large disaster where there is tremendous mutual aid 
response, it is critical that the responders to the incident 
have the kind of training necessary to be able to work with 
first responders from many other areas of the country. If you 
do not have some kind of coordination, the question becomes 
exactly how that is funded and exactly how that is going to be 
organized. However, without that, in some of the early online 
opportunities that we have for training seem to be working 
well, one based in Anniston, Alabama. So the fact that I think 
that we need to follow up on that. I think that is critical.
    You mentioned Director Paulison. Having spent 30 years in 
South Florida and working with him through Hurricane Andrew, I 
can tell you that he strongly believes in that coordinated type 
of national training. He is qualified.
    Mr. Pascrell. He is very qualified, in my opinion.
    Anybody on the panel want to respond to my question?
    Mr. Liebersbach. If I could, through the chair, Ranking 
Member Pascrell.
    Mr. Pascrell. Yes, sir.
    Mr. Liebersbach. Dave Liebersbach.
    I, prior to the life I am in now, I served as 12 years as 
the incident commander on Alaska's Type-1 incident management 
team in wild-land and fire management.
    I think this training issue and a need for leadership at 
the national level really is not just training. It has to do 
with standards and credentialing standards. I do not believe we 
want the federal government to do it all or to decide it all, 
but they probably should lead in developing those so that when 
a type-X whatever comes from Alaska to Mississippi or Alabama 
as they did this year, Mississippi and Alabama know what type-X 
means.
    Likewise, as I am currently having windstorms and I have 
teams in the field right now in western Alaska in disasters and 
may be requesting assistance, that assistance comes from Idaho 
as a type-Y, I want to know what a type-Y is and we all agree 
to it.
    I think to make it a national standard, the federal 
government needs to lead in that.
    Mr. Pascrell. Let me just conclude by asking a question, 
not getting an answer because my time is up. My question is 
this--and I would like you if you could to write me a note on 
this, and the chairman as well.
    I would like to know what you think the role of Congress 
should be in all the things that are being discussed, either by 
the chairman, by Mr. Etheridge, by Mr. McCaul, questions that 
you are going to get today. What should our role be? What do 
you think is the appropriate role?
    You have already heard from many of us that we think your 
role should be expanded and extended because you are there 
every day. I mean that seriously.
    Thank you, Mr. Chairman.
    Mr. Reichert. Thank you, Mr. Pascrell.
    The chair recognizes Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman.
    On a point of personal privilege, I would like to 
congratulate the chairman on his new position. I cannot think 
of anybody better qualified than a first responder to chair 
this subcommittee.
    I wanted to compare Katrina with Rita. About 2 weeks ago, I 
had--and I am from Texas--I had the opportunity to sit down 
with our state emergency manager at the EOC. The vice president 
came down. There was a briefing. We were shown computer models 
of what would happen if a Katrina-like hurricane hit the state 
of Texas. It was targeted toward Galveston and Houston, and it 
would put Galveston under water and it would flood the majority 
of Houston.
    We got lucky. It took a turn to the north, to the east, and 
missed the trajectory that it was originally planned to do. 
Little did we know when we got this briefing that a week later 
we would be faced with that very scenario. There was no loss of 
life directly attributed to the hurricane with respect to Rita. 
There was an evacuation, albeit we had some problems with the 
roads turning into parking lots. There was a reference to the 
Louisiana state EOC.
    When we met with the Texas EOC, it was clear that they were 
in daily and constant communication with the local judges, with 
the mayors, with the first responders. As somebody who has 
worked in law enforcement, my view is that communication is 
always the key, whether it is having a fancy radio system or 
whether it is just picking up the telephone and knowing who to 
call.
    Having said that, I would like for the panel, whoever would 
like to answer the question, to compare and contrast the 
response to Katrina versus Rita, recognizing that the Rita 
Hurricane was downgraded to a category three and did miss a 
major population center.
    Mr. Freudenthal. Yes, sir. One thing that comes to mind 
initially was that fortunately Galveston and Houston had the 
experience of Katrina. Katrina and New Orleans and that area 
did not have the like experience. So good for you, you had the 
experience. Bad for them, they had to show you that.
    Mr. McCaul. Right.
    Mr. Freudenthal. But I think that has a lot to do with it. 
Your example of going through that exercise before it ever 
happened is a lot of what we are talking about, is to plan 
before the event. It is a little tough afterwards.
    So I think that hits a high point of what you are trying to 
say and what we are trying to say. Communication and 
cooperation are essential in this effort, and planning those 
events, as painful as they are, saves hundreds, thousands or 
more lives and affects millions of lives. So I think that is a 
key element of that.
    Mr. McCaul. Anybody else care to comment?
    Chief Killen. Yes, sir. I think that everything we learn is 
from experiences, whether they are good or bad experiences. I 
would like to just point out something that I kept looking at 
and thinking about. My Lord, what will we do if we have a 
terrorist attack and it is a toxic gas or something of that 
nature--
    Mr. McCaul. Right.
    Chief Killen. --and we do not have the ability to get our 
citizens moved?
    I want to point out one thing. There was a success story in 
the Louisiana EOC, and that was the state police. They had 
their act together. That was one element of Louisiana EOC that 
worked very well.
    Mr. McCaul. If I could follow up on that. I know that there 
was a comment made about the Louisiana state EOC that nobody 
knew who was in charge. I know when we went through the Rita 
exercise, obviously with the hindsight of Katrina, that it was 
clear that the state emergency manager and the governor, in 
concert with the locals, was very much in charge of the 
situation. I guess that would be sort of a lesson learned from 
what happened.
    Mr. Canterbury. I think one of the things that found that 
was on a state level, it was the communication from our 
sheriffs and chief executives from the law enforcement agencies 
that did not have the ability to call the EOC, so those 
especially in the surrounding areas had no communication.
    So the EOC being set up in Baton Rouge had no contact with 
what was actually happening in the field. Two and three days 
after the storms, we were running into division commanders in 
the New Orleans Police Department that had not talked to 
anybody above their rank since the storm.
    So I think the bottom line was even if there was somebody 
in charge of the EOC, there wasn't anybody to talk to.
    Mr. McCaul. Those communications were not adequate.
    Mr. Canterbury. Absolutely.
    Mr. McCaul. So we need to plan a default system in the 
event it is knocked out.
    Mr. Canterbury. And in some of those districts, they did 
have good default systems, even inside the city of New Orleans. 
When the media was reporting that as many as 50 percent of 
public responders were not there, it was not true. They were 
just being dispatched internally with ``go here today.'' It was 
a police captain or a fire captain making those calls because 
there was nobody above him that he could communicate with. They 
were there, many more of them were there than left.
    Mr. McCaul. Mr. Killen, you mention the point that had it 
been a terrorist attack, it could have been far worse. I agree. 
I think in the Rita exercise, we had advance notice and people 
had time to evacuate, and still again the major highways turned 
into a parking lot. Had it been a terrorist attack with no 
notice, it would have been far worse in terms of evacuation.
    Do you have any lessons learned in terms of Hurricane Rita 
in terms of evacuation and how that could go more smoothly than 
it did?
    Chief Killen. I think that more smoothly would have been 
opening up all of the lanes out of Houston and trying to move 
them by zip code, if you would, of trying to get the people 
furthest out started first to start the movement. It is a very 
difficult chore.
    I have never driven in Houston. My son lived there for 
years and his coworkers always had a six-pack of beer on the 
way home from work because it was that long getting through 
traffic. So I cannot imagine what it is like to try and 
evacuate a city of that size.
    Mr. McCaul. And a lot of people, even if it was not 
mandatory, they left. After seeing what happened with Katrina, 
they were leaving anyway. It is a hard thing to control.
    I see my time has expired. Thank you, Mr. Chairman.
    Mr. Reichert. The chair recognizes the gentleman from North 
Carolina, Mr. Etheridge.
    Mr. Etheridge. Thank you, Mr. Chairman.
    Let me thank each of you, number one, for being here; and 
number two, for your service. It is amazing we have to have a 
national incident before Congress decides it is time to listen 
again. We did a good job after 9/11, and it seems to me that we 
have been pretty anemic since then in terms of what we did and 
the kind of resources we put out. So thank you for your service 
today.
    A couple of questions. All of you as respective 
organizations, have all of you incorporated, and this will 
probably take a yes or no, ICS into your basic certification 
courses so that every certified respondent professional is 
familiar with it?
    And number two, to your knowledge do volunteer departments 
have a harder time training personnel in ICS?
    Chief Killen. Since you said volunteer fire departments, it 
is difficult.
    Mr. Etheridge. Because that, by and large, is where 
volunteer and rescue squads tend to be.
    Chief Killen. It is very difficult for volunteer fire 
departments to get a lot of the training that is required, 
particularly because they are involved in working, families, 
and raising money for the fire department to survive. We have 
an excellent process in the United States in the certification 
process, and the IAFC does have programs, and the states have 
training programs where there are training opportunities there 
for the people to be trained in incident command.
    Mr. Etheridge. Anyone want to respond on EMS?
    Mr. Garner. I would simply say that to answer your 
question, that that is indeed true. Across the entire nation 
would be inaccurate at this point. I think there are tremendous 
efforts and strides being made in that way, but as the chief 
says, particularly in volunteer systems, whether it be an EMS 
or fire-based systems, it is very difficult to get a handle on 
whether they have indeed been trained to the system.
    Dr. Gebhart. Speaking specifically about medicine, since 
medicine is now considered part of this first response corps, 
medicine has been very slow to embrace this. It is one 
specialty among hundreds of different types of physicians who 
done this. It has not happened there yet. It has not happened 
in our nation's medical schools. It has not happened in our 
nation's residency training programs. So that is a whole other 
segment of the response community, not a traditional player, 
that has to be brought up to speed. Programs have to be 
targeted and aimed at those groups.
    Mr. Etheridge. Thank you.
    Do any of you have a cost estimate for NIMS implementation, 
number one, for your department and others like yours? And 
number two, is the cost of training related to the 
implementation?
    Chief Killen. I do not have any figures on the cost for 
implementing the training right off hand.
    Mr. Etheridge. Just give me some general numbers, general 
thoughts. Is it a barrier?
    Chief Killen. It is a barrier, particularly for the 
volunteer fire companies across this country. There are a large 
number of them.
    Mr. Etheridge. I know, about 80 percent. How about the 
others?
    Mr. Canterbury. For law enforcement, I think the burden is 
going to be even more because as the chairman noted, NIMS is 
not something that has been open-armed welcomed by law 
enforcement. We live in a culture where we normally just go and 
take care of the problem. The majority of the incidents that 
law enforcement goes to, there is not a whole lot of doubt that 
the lone law enforcement officer is in charge of that call. But 
we now are implementing incident command, and I think it is 
going to be very expensive. I do not think that without 
mandates or without federal funds will you see a true 
implementation of NIMS in a local law enforcement capacity for 
years.
    Mr. Etheridge. Does everyone sort of agree with that?
    Mr. Freudenthal. I would agree with my colleagues that that 
is critical.
    Mr. Etheridge. Okay. Thank you.
    One other point for my final question, because my time is 
running out, I think it is general knowledge that we still have 
a major problem in communication. We can talk about all the 
problems that happened in New Orleans and Louisiana and 
Mississippi, and to a lesser extent in Texas, but certainly in 
Alabama, communications is a critical issue in any major event.
    Finally, Chief Killen, in your testimony you suggested that 
the Department of Homeland Security require everyone to take 
the online NIMS course. It makes sense. Does this include all 
DHS personnel, including FEMA? And do you know if they are 
currently required to take ICS training?
    Chief Killen. I cannot respond to what DHS is required to 
take, but in the testimony is was implying that the government 
officials at all levels that are going to be involved in this 
process, so those people in FEMA who respond or in DHS respond 
should know what the requirements are and what NIMS is, and so 
should all of our local officials.
    Mr. Etheridge. I could not agree more.
    Does everybody else agree with that?
    Dr. Gebhart. Yes, sir. That is a requirement as a member of 
urban search and rescue. We are NIMS-compliant. We have taken 
that.
    Mr. Etheridge. Mr. Chairman, with your indulgence, one 
final follow-up?
    Mr. Reichert. Go right ahead, sir. Thank you.
    Mr. Etheridge. Thank you.
    Mr. Garner, when municipals contract for services with your 
membership and your folks, do these contracts usually include 
training requirements, including ICS and NIMS? If they do, 
wouldn't the services be more valuable? And wouldn't that also 
be, given the things we have been through now over the last 
several years, it seems to me that would be an issue of, number 
one, negotiation; but number two, that they would be a lot more 
valuable in the process.
    Mr. Garner. There is no question that the inclusion of the 
system would be valuable in those contracts. The fact is that 
typically training is included in contracts, but not 
specifically the training that you are referring to here. So I 
would agree with you completely that that would be an essential 
component on a go-forward basis.
    Mr. Etheridge. Mr. Chairman, thank you.
    In closing, let me encourage each of you, because your 
folks are the first line of defense and offense, whichever it 
is. I think, having been to some extent in first response 
because I was the state superintendent of schools for 8 years, 
the one area that always gets cut early in almost any 
organization is training. Without training, assessment, 
evaluation and follow-up, we are going to continue to have 
problems because we have a short memory after it is over with, 
and we spent a lot more money rebuilding than we are ever 
spending on preparation and getting prepared and the 
assessments.
    So hopefully you will continue to remind Congress and local 
and state jurisdictions how important training of our personnel 
is. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Reichert. Thank you.
    I want to follow up just with a couple of thoughts and one 
more question.
    I cannot help but think back to 1972 as a 21-year-old cop 
in King County. We had one radio frequency that served a 2,200-
square-mile county. Today, we have five or six different 
frequencies set up around the county to serve the communities 
that each precinct supports and serves.
    Sitting here as a sheriff, as a police officer, as a 
sheriff's deputy of 33 years, I am thinking back to 1972 and 
hearing the testimony today, the frustration that all of us as 
first responders have felt almost 35 years later in no progress 
at all, really, in this whole question of interoperability, the 
question of us being able to communicate, our police officers, 
firefighters, first responders being able to communicate with 
each other. It is a 30-or 35-year process that has been 
undertaken.
    I just want to assure that the witnesses here today and 
anyone who happens to be listening that this committee is going 
to be dedicated to solving this problem, at least we will be an 
active member in pushing for a solution to get something done. 
I know that everyone on this committee will be committed to 
that. In fact, in October we are going to be holding a hearing 
solely dedicated to operability, how we can set up a command 
post when there is not the ability to communicate, and then 
interoperability, what does it mean and where do we go from 
here. I know all of you are so frustrated with that.
    The other key and integral part to responding to any 
serious incident and setting up incident command is those 
partnerships that you all talked about. By the various 
disciplines we have represented here today, we can see it takes 
the whole community.
    One of the things that I am a little bit concerned about 
is, do you think in your experience and what you have seen with 
Katrina and Rita, are local governments, and let's just take 
these two catastrophic events that have occurred within the 
past few weeks in the Gulf states, are local governments in 
that area, were local governments, including the private 
ambulance companies, the public works departments of their own 
cities and local governments, the medical community and others, 
had they reached out prior to and built those relationships? Or 
is that something now that they have recognized was kind of an 
integral part that they had missed?
    Mr. Garner. Chairman Reichert, I would say this, that as 
was mentioned in my written remarks, there are very, very 
different models of EMS systems throughout America. There are 
some very strong consistencies. Certainly, police and fire 
components are very, very strong in all EMS systems.
    I think the EMS side of the ledger, however, is most 
recently being addressed more efficiently than it has been in 
the past, regardless of whether the component includes public, 
private, hospital-based, volunteer. I think that when we start 
to look at these systems, and as we develop this plan, the key 
is that we have standards, that we have consistency, that we 
have interoperability because one never knows where the 
disaster is going to occur, and certainly one never knows where 
the resources are going to be drawn from.
    So in answer to your question, I think that has been 
cooperation. I think there is lots of room for improvement.
    Mr. Freudenthal. Mr. Chairman, if I may, with respect to 
public works, and I am sure the others, the success stories you 
saw on adequate response were the results of cooperation and 
planning from those agencies that in fact took that step 
forward long before the event occurred. So many times, however, 
that is probably a reflection of the relationship between the 
players, not necessarily because it was mandated. I think the 
aftermath of this incident dictates that that is the way to go, 
and that whether we want to, like to, or whatever, we have to 
work together on this. We have to communicate. We have to 
cooperate so that our citizens are taken care of.
    Mr. Reichert. Anyone else? Chief?
    Chief Killen. Mr. Chairman, we learned a lot of lessons and 
this overwhelmed all of our resources in those communities.
    One of the big questions to come out of this was, why do so 
many people have to drive 1,000 miles to get to New Orleans and 
pass all of these other communities that had resources? The 
IAFC has established a task force to focus on developing a 
national fire mutual aid system. It is working in certain parts 
of this country today, in California, Illinois, Florida, 
Georgia, Maryland. We have a task force put together that is 
going to address that, to work with those states that do not 
have a statewide mutual aid system, to work with making 
regional response and communications together.
    We think that it is well time that we did this. The 
International Association of Fire Chiefs has stepped up to the 
plate to take that on. We will certainly keep you and this 
committee informed of that progress, but we think that that 
will help resolve many of the problems and help to resolve some 
of the issues of self-dispatch.
    Mr. Reichert. Anyone else?
    Mr. Liebersbach. Mr. Chairman, if I may, I think we also 
should not overlook the need to incorporate the private sector, 
particularly when it comes to things like power outages in the 
north and who is really going to be driving the train on many 
of those to get them in the system, maybe not through mandate, 
but through advice and consulting to get them into this NIMS 
system, because in a big event they are going to be critical, 
whether it is replacing communications or power or whatever.
    We, in Alaska, found by bringing them into our training of 
ICS, when we need the local gas company or electric company, 
they know right where to go into the ICS system, who to report 
to, and start getting their utilities back on line. The same 
with the oil companies up north. Besides the private-sector 
first responders, there is a big private sector out there, 
whether it is Home Depot of whoever, that need to be looked at.
    Mr. Reichert. I could not agree more. I kind of think of 
the grocery store owner who is caught in the middle of one of 
these events and decides that he can deliver food, so he gets 
out his rowboat and loads it with food and he is the immediate 
responder. And then he is there to help, and then we have the 
first responders there. So you can really see the whole 
community needs to be involved in this effort.
    I just want to mention that Washington state is also one of 
those that has a statewide mutual aid system in place.
    I want to thank all of the witnesses and give Mr. Pascrell 
additional time to ask questions.
    Mr. Pascrell. Thank you, Mr. Chairman.
    A couple of things. I want to thank you all for being here 
today.
    Mr. Freudenthal, having worked extensively, too, in the 
public works area, you probably many, many times never are 
given full credit for all that you do, and all of those folks 
throughout the United States of America. It is not the most 
sexy thing to talk about, and yet provide a tremendous service.
    I want to assure everyone on the committee that when we 
look into the communications problem, and we will do that, we 
are committed to that, that we look into the spectrum problem.
    I would suggest, Mr. Chairman, that we have to bring some 
FCC people in front of us, fish or cut bait, because long 
before I got here, long before David got there, people have 
been talking about this, and nothing happens. I do not like 
that situation. I feel very uncomfortable to talk about the 
same thing all over again and never solve it. As Einstein said, 
that was probably the best definition for insanity.
    So I can assure you, we are going to get some people in 
front of us, and from the FCC, too, because they are part of 
this, and we are not going to be able to really solve the 
problem until we get into this spectrum issue.
    My final question is this, we must constantly re-evaluate 
our response and command mechanisms. I understand that. Only 
God is perfect, but we have to do a lot more.
    What changes to command authority, particularly for the 
federal response, would you make, and you think we need to 
make, in response to Hurricane Katrina? What did we learn from 
that? What would you suggest, if you had one sentence, looking 
back at this horrible situation, this tragedy, in terms of the 
command authority? I am asking about that specifically. What 
would you change?
    Mr. Liebersbach. If I may, to the chair and Mr. Pascrell, 
my one sentence would be, use the system and the people you 
trained to do it, nobody how big it gets and try not to pay as 
much attention to the politics. Use the system that you have 
been purporting out there, NIMS and ICS, all the way from the 
top down.
    Mr. Pascrell. Anyone else?
    Chief Killen. I concur with that, and I think we need to 
train the people at the local and state level in government, 
not the first responders. They are supervisors. They are 
elected officials. They need to understand that system.
    Mr. Pascrell. You don't think they do?
    Chief Killen. I don't think the number of officials at that 
level understand it to the degree that they need to understand 
it.
    Mr. Pascrell. Anyone else? Thank you.
    Mr. Garner. I would simply make one additional comment, and 
that is understanding what we did about the infrastructure that 
was where the decision-making should have been made, we have 
got to work on an instant and an immediate backup plan if that 
indeed occurs, so that we can have the right people making the 
decisions.
    Mr. Pascrell. Just as you have backup generators, you need 
a backup system.
    Mr. Garner. Absolutely.
    Mr. Pascrell. Anybody else?
    Thank you. And thank you so much for your service to this 
country.
    Thank you, Mr. Chairman.
    Mr. Reichert. Thank you, Mr. Pascrell.
    I thank the witnesses for your valuable testimony and for 
taking time to be with us today.
    I thank the members for their questions.
    The members of the committee may have some additional 
questions for the witnesses. We would ask that you respond to 
those in writing please. This hearing record will be held open 
for 10 days.
    Without objection, the committee stands adjourned. Thank 
you.
    [Whereupon, at 2:34 p.m., the subcommittee was adjourned.]

                             For the Record

 Additional Responses from David E. Liebersbach to the Honorable David 
                         G. Reichert Questions

    In reference to your letter of October 12, 2005 requesting 
additional comment on questions related to the 9/29/2005 hearing on 
``Incident Command, Control, and Communications during Catastrophic 
Events'', below you will find answers to the additional questions.

    1. How is the Department of Homeland Security addressing the 
technology needs of law enforcement and other first responders in rural 
areas?
    The only program specific to rural preparedness issues is the 
Congressional appropriated Rural Domestic Preparedness Consortium 
funded through the Office of State and Local Coordination and 
Preparedness. I am not aware of any other specific programs dedicated 
to rural needs including technology.

    2. Is there a need for additional funds and/or special programs to 
ensure rural areas have the same capability for disaster response as we 
do in urban areas?
    Yes, there is a need for additional programs in rural areas to 
address disaster response issues. In particular, communications and 
public warning systems are a challenge in rural areas and must be 
addressed. Many believe that an investment in infrastructure such as 
communications is a one-time cost. Systems such as NAWAS and Satellite 
radios and phones require monthly cost to maintain the service. This is 
another reason that the all-hazards Emergency Management Performance 
Grant (EMPG) program is so critical to support the recurring costs 
associated with building a capability.

    3. Are there gaps in technology for law enforcement and first 
response Government Relations Director in rural areas vs. urban areas?
    Yes, there are gaps in rural areas for fist responder technology in 
terms of getting funding for them and also the ability to utilize 
current systems poses problems in rural areas. Rural areas often 
provide communications challenges for current systems in remote areas 
since legacy networks for communications are not often built to go into 
the most remote areas or over rough terrain. Further, even if 
technology is available, local emergency management officials need 
training on the equipment, which requires either the state or the local 
government to travel.

    4. Is the infrastructure to support technology products (such as 
communications devices and on-line wireless computer databases) for law 
enforcement/first responders in place in rural American as it is in 
urban area?
    No, rural communities often need a different infrastructure because 
of the terrain and topography in regions and that technology is harder 
to find and sometimes more costly. In Alaska, mountainous regions pose 
a challenge for communications and the problem cannot be solved with 
systems specifically used in larger cities.

    5. Would a rural technology pilot program for homeland security be 
a useful mechanism in identifying and addressing technology barriers 
and challenges in a rural setting?
    Yes, I would support such a program for Alaska's participation. We 
have the challenges of the coastline, mountains and the distance to the 
mainland and federal support towards addressing communications 
technology problems would be welcomed.

                                 <all>

</pre></body></html>
